<html>
<title> - IMPROVING THE SAFETY AND RELIABILITY OF THE WASHINGTON METRO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






      IMPROVING THE SAFETY AND RELIABILITY OF THE WASHINGTON METRO

=======================================================================

                                (114-43)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-217 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  


                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           DONNA F. EDWARDS, Maryland
BLAKE FARENTHOLD, Texas              JANICE HAHN, California
BOB GIBBS, Ohio                      RICHARD M. NOLAN, Minnesota
RICHARD L. HANNA, New York           ANN KIRKPATRICK, Arizona
DANIEL WEBSTER, Florida              DINA TITUS, Nevada
JEFF DENHAM, California              SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin            ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         CHERI BUSTOS, Illinois
SCOTT PERRY, Pennsylvania            JARED HUFFMAN, California
RODNEY DAVIS, Illinois               JULIA BROWNLEY, California
ROB WOODALL, Georgia                 MICHAEL E. CAPUANO, Massachusetts
JOHN KATKO, New York                 GRACE F. NAPOLITANO, California
BRIAN BABIN, Texas                   CORRINE BROWN, Florida
CRESENT HARDY, Nevada                DANIEL LIPINSKI, Illinois
RYAN A. COSTELLO, Pennsylvania       PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)



























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               WITNESSES
                                Panel 1

Hon. Steny H. Hoyer, a Representative in Congress from the State 
  of Maryland, testimony.........................................     6
Hon. Gerald E. Connolly, a Representative in Congress from the 
  Commonwealth of Virginia, testimony............................     6
Hon. John K. Delaney, a Representative in Congress from the State 
  of Maryland, testimony.........................................     6

                                Panel 2

Paul J. Wiedefeld, General Manager and Chief Executive Officer, 
  Washington Metropolitan Area Transit Authority:

    Testimony....................................................    14
    Prepared statement...........................................    43
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves of Missouri..............................    51
        Hon. Bill Shuster of Pennsylvania........................    52
        Hon. Barbara Comstock of Virginia........................    53
        Hon. Eleanor Holmes Norton of the District of Columbia...    62
        Hon. Daniel Lipinski of Illinois.........................    66
Carolyn Flowers, Acting Administrator, Federal Transit 
  Administration:

    Testimony....................................................    14
    Prepared statement...........................................    68
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves of Missouri..............................    74
        Hon. Barbara Comstock of Virginia........................    78
        Hon. Eleanor Holmes Norton of the District of Columbia...    79
        Hon. Daniel Lipinski of Illinois, joint with Hon. Norton.    83
Hon. Timothy Lovain, Chair, National Capital Region 
  Transportation Planning Board, Metropolitan Washington Council 
  of Governments:

    Testimony....................................................    14
    Prepared statement...........................................    84
    Responses to questions for the record from the following 
      Representatives:

        Hon. Sam Graves of Missouri..............................    89
        Hon. Eleanor Holmes Norton of the District of Columbia...    91

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Chris Van Hollen of Maryland, submitted at the request of 
  Hon. Eleanor Holmes Norton of the District of Columbia.........    12

                       SUBMISSIONS FOR THE RECORD

Chart, ``Funding Sources: Comparison of WMATA to Industry Average 
  (2104),'' submitted at the request of Hon. Eleanor Holmes 
  Norton of the District of Columbia.............................    13
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  





 
      IMPROVING THE SAFETY AND RELIABILITY OF THE WASHINGTON METRO

                              ----------                              


                         TUESDAY, MAY 24, 2016

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 2167, Rayburn House Office Building, Hon. Sam Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Missouri. We will go ahead and call the 
hearing to order, and I want to welcome everybody and all of 
our witnesses here today.
    Today we are going to discuss how the Washington Metro 
system is going to address its safety and reliability issues. 
The issue is important to all the Members here because when we 
have constituents come in we want to make sure that, when they 
come here to see the Nation's Capital, that they should be able 
to move around the region safely and very efficiently.
    The Federal Government has invested billions of dollars in 
Metro, and yet the system isn't safe and it is not reliable. 
Metro has been plagued by longstanding, well-documented safety 
issues. And unfortunately, investigations from the 1980s, from 
the 1990s, and today have a common refrain, and that is a lack 
of communication and safety procedures which have put riders 
and workers at risk.
    The focus of today is how the system is going to change. 
And I am heartened to hear Metro's new general manager, Paul 
Wiedefeld, is going to talk about his commitment to improving 
safety and addressing the maintenance backlog. The committee 
will be watching to ensure that the talk turns into action.
    The Federal Transit Administration, the FTA, is playing an 
important role as Metro's temporary direct safety oversight 
entity. The FTA is here today to share with us what it is going 
to do to promote safety and reliability at the Metro.
    Congress can't legislate communication and it can't buy 
WMATA [Washington Metropolitan Area Transit Authority] a safety 
culture. WMATA has to take action on the responsibility of 
providing safe transit in our Nation's Capital and it has to be 
held accountable to the Federal, State, and local taxpayers 
that are funding them.
    I look forward to a very frank discussion. I am going to 
yield the rest of my time to Congresswoman Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman. I ask unanimous 
consent to offer an extended opening statement for the record.
    But first of all, last Friday, when the Metro's general 
manager, Paul Wiedefeld, who is with us today, terminated 20 
managers, 7 of whom were considered senior, I think we all 
hoped that this is just the beginning of a new era of 
accountability and transparency at Metro, and I know our 
Washington delegation all voiced support for you in this 
action, as well as a number of your recent actions. We need to 
find new ways to run this rail.
    I join Congressman Delaney on changing the board structure 
and legislation on that front, and we are pleased to see new 
board members are focused on being experienced board members 
with transportation and management experience.
    On cost issues, according to FTA and DOT [Department of 
Transportation] data, Metrorail's costs run 120 percent to 150 
percent higher than comparable transit systems. That is why I 
appreciate that Mr. Wiedefeld said at a recent Loudoun County 
event that he attended with me that he is not asking for more 
money at this time, but is very much focused on addressing 
these issues and how we can restructure Metro and how we can 
address some of these issues on labor negotiations that are 
coming up, and how we can find ways to do better.
    I am concerned that there is a clause in the current labor 
agreement which states--and I quote--``The authority shall not 
contract out or subcontract any work normally performed by the 
employees within the bargaining unit defined in this agreement 
which would result in a layoff, transfer, or demotion of these 
employees.'' Does this prevent Metro from having the kind of 
flexibility to realize the cost savings of contracting out 
track work and having the best people at the best price do this 
work? I know I have talked with the new general manager and FTA 
about these issues.
    I have also met with businesses who are doing track work 
who tell us they can do this at lower costs than we are 
currently paying, and our current costs seem to run well ahead 
of Davis-Bacon costs.
    I also want to see how we are using new technologies that 
can document the track work being done, technologies that can 
save money and increase safety and transparency, and are 
already being used at other rail systems around the country. I 
hope we can explore that more. And since I am chairman of the 
Subcommittee on Research and Technology of the Committee on 
Science, Space, and Technology, we are going to be looking into 
having hearings on that. So anywhere we can assist you on that, 
we want to find the best, most cost-efficient systems that save 
our taxpayers money.
    Finally, I want to address the disturbing report we saw in 
the news last night about a rape that occurred last month on 
Metro in broad daylight, 10 o'clock in the morning. Clearly, we 
also have--and I hear this from people all the time--the 
concerns about basic personal safety. I have had people 
approach me at my own stations having personal safety issues, 
and this is something that is, obviously, unacceptable, but 
also a concern, that this wasn't immediately made known, when 
this report was made, and how are we doing all of these things. 
Because I appreciate we have talked about this new era of 
transparency, as well as the culture of safety that we all need 
and finding, you know, better ways to save money.
    But I do appreciate that you have talked about putting more 
people on the front lines in the stations, and I think this 
very troubling incident is one of the many reasons we have to 
have more people out of the back office and on the front lines, 
protecting our customers and our constituents.
    Again I thank the chairman and our witnesses today. I thank 
the chairman very much for this important hearing, and for his 
hard work on this effort. And I look forward to hearing from 
our witnesses today. Thank you.
    Mr. Graves of Missouri. Thank you very much. I now turn to 
Ranking Member Norton for her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. I have to 
begin by saying how much I appreciate this hearing. I think the 
fact that we are having this hearing today points to how 
important WMATA is, of course, to its immediate region, but 
also to the Federal Government itself. We are locked into this 
together, and into WMATA's problems together, and unwinding 
them together.
    I stress WMATA's uniqueness. No other Metro system across 
the United States has to respond to three different 
jurisdictions. That is a built-in structural problem that 
neither WMATA nor, for that matter, those of us in the Federal 
Government have been able to help WMATA somehow get over. This 
is one of the reasons for WMATA's complexities. And those 
complexities play prominently into the changes that are needed.
    For example, just this morning Secretary Foxx announced 
that he was appointing a high-level official from his office to 
help hasten the work of the three jurisdictions in setting up 
their own safety oversight mechanism. The new CEO, Mr. 
Wiedefeld, has taken steps that have been acknowledged as bold 
and necessary--despite inconveniencing the public.
    But here we have dual issues that collide. We want the 
public to be safe, and we want the public to be able to get 
where they are going quickly. And how WMATA solves that during 
this process when they are overhauling the system, is one of 
the issues we want to face today. The basic challenge WMATA 
will meet after this single year of essentially rebuilding much 
of the system is how to keep it that way. And I will want to 
hear more this morning about that.
    The word ``safety culture'' is thrown around. What does 
that mean? It is a really scary word, because it means that 
something is embedded in how the WMATA operates that somehow 
has to be dug out. And the culture notion has not been defined.
    Congress, of course, passed MAP-21 [Moving Ahead for 
Progress in the 21st Century Act], giving the Federal Transit 
Administration safety oversight over public transportation in 
the United States, and we reinforced that in the FAST [Fixing 
America's Surface Transportation] Act. Now WMATA safety issues 
pile onto FTA that it would like to offload. And I think the 
SafeTrack plan of the general manager will help to do that.
    Some of Metro's funds are being held up because, 
inexcusably, on top of all of its other issues, it mishandled 
its finances and is therefore having trouble getting its 
Federal funds. That is something that has to be worked out and 
worked out very quickly. It looks like WMATA has taken the 
necessary actions, but that the Federal Transit Administration 
has not responded appropriately. So if WMATA does something 
right, we expect the Federal agency to respond in kind.
    Mr. Chairman, I am very anxious to hear the testimony. I 
very much appreciate that the witnesses have prepared 
thoughtful testimony today. I think you see how much today's 
hearing means to the region as three Members of the region are 
here to testify, and I thank them for coming, as well. I yield 
back, sir.
    Mr. Graves of Missouri. Thank you very much. I now turn to 
the chairman of the full committee, Bill Shuster.
    Mr. Shuster. Thank you, Mr. Chairman. I thank our witnesses 
being here today. With the panel we have Messrs. Hoyer, 
Connolly, and Delaney, and then three members of the committee, 
Mrs. Comstock, Ms. Norton, and Ms. Edwards, we have got the 
entire House delegation that represents the area, which--we can 
tell it is an important issue to them, but it is really an 
important issue to all of us.
    Millions of people come to Washington, DC, every year, from 
around--our fellow citizens to people from around the world. 
And this transit system really ought to be the crown jewel of 
the transit systems around the country. And in fact, they get 
more money per capita than any other system in the country, but 
they also spend more money than any other system in the 
country. And we have got to bring those things into alignment. 
But this needs to be a system that is safe, safety has to be 
paramount.
    And for over 50 years, as mentioned, the Metro system has 
benefitted by Federal support. So this is really important to 
the entire Nation, that we get this right. In addition to the 
monies that the Federal Government gives to the Metro system, 
also 40 percent of the Metro's rush-hour riders are provided--
Federal employees are provided a subsidy to ride that system.
    So, again, the safety of the people that we work with every 
day and depend on to help us operate the Government depend on 
this system being a safe and reliable system. But despite all 
that Federal investment, the safety and reliability record has 
deteriorated. And it is because, I believe, and from what I 
have talked to other folks, it has not switched its 
responsibility from building a system to operating and 
maintaining a system.
    What it takes, I believe, is a cultural change at Metro, 
and I am pleased that the new CEO, I think, is doing just that. 
What--the Federal Transit Administration has temporarily taken 
over that authority, and Administrator Flowers is here today to 
talk about that. That oversight needed to be done because Metro 
hasn't been able to do it appropriately.
    Secretary Foxx has given 1 year to the WMATA, to Virginia, 
Maryland, and DC to step up to the plate and do what is 
necessary on this, on the oversight.
    And last year, Congress, we passed the FAST Act. And in 
that we strengthened FTA's safety oversight authority and 
provides the DC region with 5 years of increased funding. 
Again, more Federal dollars that the citizens of America are 
contributing to this system. As I said, this should be the 
crown jewel of the system and it is not, and we deserve to have 
that.
    Again, the new CEO, Paul Wiedefeld, is here today. And his 
record as a manager of--making things run in the proper way, he 
has got the right resume for it, and I think his strong 
statements in just his first year really has woken folks up to 
the need for strong management, for a cultural change at this 
transit system.
    So again, I welcome our--my colleagues here today, look 
forward to hearing from them and also from Mr. Wiedefeld and 
Ms. Flowers on this issue.
    Mr. Shuster. So thank you very much, and yield back.
    Mr. Graves of Missouri. I now turn to Ranking Member 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Well, it is sad that 
we are here today under these circumstances. There are 
certainly management issues at WMATA, and I will get into that 
in a moment. But let's get to the bottom line here: Congress 
has neglected to make sufficient investments in infrastructure.
    Everywhere in the country, cities are struggling between 
the pressure to build out more transit and new options--and 
that is certainly going on here, in what is arguably 
potentially the most congested traffic region in the United 
States of America, and then maintaining their legacy systems. 
And Congress hasn't been willing to be an equal partner. There 
is an $84 billion backlog, nationally, to bring transit up to a 
state of good repair.
    Yes, the FAST Act is going to give us a little more money. 
That is good. But with the amount of money there, we are never 
going to get a state of good repair, never. We are just about 
treading water. And right now, DOT says the average annual 
level required to eliminate the backlog by 2030 is $18.5 
billion a year. And, well, we are putting up $10 billion. Uh-
oh, that doesn't sound too good, does it?
    It is pretty embarrassing when in what is called the 
capital of the free world, the greatest country on Earth, 
American exceptionalism, we are killing people on a transit 
system with a combination of budgetary pressures and management 
issues.
    Now, I think we are going to make real progress on the 
management issues, and we will hear about that later today. But 
what about the money? We cannot ignore the need for additional 
investment.
    Now, when the so-called American Recovery Act passed, which 
I voted against because 4 percent of that 800-some billion 
dollars went into infrastructure investment--4 percent--cities 
like Chicago just pulled projects off the shelf. They had the 
money committed in 30 days. They could have spent 10, 20 times 
as much money on project sitting on the shelf, waiting to 
happen, that are critical for the safety and security of their 
riders and, obviously, the efficiency of the system.
    So we cannot ignore the thousand-pound gorilla in the room. 
We aren't putting up the money we need to be a good partner. We 
only partner 50 percent, and we don't help with operations. 
And, you know, we are just walking away from that. So that is 
why we are here today.
    So let's not just say this was a management issue or, oh, 
gee, they spend more money or, gee, they are less efficient. 
Yes, those are all issues. But the bottom line is this is not a 
unique circumstance. This, what is happening here in 
Washington, DC, is getting attention. But there is--that is 
happening in every major legacy system across the country 
today, and it is happening in cities that want to give their 
people new transit options and have to choose between running a 
bus with 1 billion miles on it that is breaking down every 
day--maybe the brakes don't work so well--and giving people 
those new options to get them out of congestion.
    We shouldn't have to make those choices. Our country, the 
United States of America, can afford to do both. We can afford 
to partner and help them rebuild and maintain and build out the 
new options, but it is going to take a new attitude here in 
Congress.
    I have offered many ways to help increase transit funding 
and highway funding. They have all been rejected. We weren't 
even allowed to vote on one single amendment when we did the 
FAST Act. They were not allowed. Many amendments were offered, 
including bipartisan amendments, that dealt with funding. 
Instead, we took money from the TSA [Transportation Safety 
Administration] to help pay for that bill, and now people are 
standing in line at the airports. Wow.
    We are going to keep shuffling stuff around until nothing 
works in this country any more.
    Thank you, Mr. Chairman. I look forward to the hearing.
    Mr. Graves of Missouri. Thank you very much. Today we have 
two panels, and I want to welcome our first panel.
    We have got the Honorable Steny Hoyer, who is representing 
the Fifth District of Maryland; the Honorable Gerry Connolly, 
who is representing the 11th District of Virginia; and the 
Honorable John Delaney, who is representing the Sixth District 
of Maryland.
    I would ask unanimous consent that our witnesses' full 
statements be included in the record.
    [No response.]
    Mr. Graves of Missouri. And, without objection, that is so 
ordered.
    And with that we will start with Mr. Hoyer. Thank you for 
being here.

TESTIMONY OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
    FROM THE STATE OF MARYLAND; HON. GERALD E. CONNOLLY, A 
 REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA; 
AND HON. JOHN K. DELANEY, A REPRESENTATIVE IN CONGRESS FROM THE 
                       STATE OF MARYLAND

    Mr. Hoyer. Thank you very much, Chairman Graves and Ranking 
Member DeFazio. And I want to associate myself with the remarks 
from the gentleman from Pennsylvania, Mr. Shuster, the chairman 
of the committee. Clearly, this was the crown jewel. Clearly, 
nobody would be calling it the crown jewel today. And clearly, 
it must be the crown jewel for all the regions the chairman 
mentioned in terms of--we used to call this and still call it 
America's subway, because millions and millions of everybody's 
constituents in this room use this system.
    I appreciate the opportunity to share my input with the 
subcommittee regarding the Washington Metropolitan Area Transit 
Authority and the need for robust investment and high safety 
standards.
    The safety and reliability of the Metro is of critical 
importance, not only to Washington, DC, and its surrounding 
communities. It is also critical to the smooth functioning of 
the Federal Government and of our national defense and homeland 
security.
    Both civilian and military rely on the Metro to get to 
their offices and to their duty stations. My district is home 
to 62,000 Federal employees, and many who serve in military 
jobs located here in regional installations. Many of them 
depend on Metro to get to work each day to serve the American 
people. Metro is also a crucial tool for the millions of 
Americans and foreign visitors who come to our Nation's Capital 
each year. That is the premise which underlines our Federal 
focus.
    I joined the rest of the National Capital region delegation 
last Wednesday for a meeting with Paul Wiedefeld, Metro's new 
general manager, of whom many of you have spoken and spoken 
positively--and I think that--appropriately, as well--to 
discuss WMATA's new SafeTrack plan, which aims to address 
maintenance and rehabilitation efforts to improve safety. 
However, we spoke on a more broad basis than simply the 
SafeTrack program.
    The recent incidents of fire and the daylong shutdown for 
diagnostic inspections have brought to light a number of very 
critical repairs that must be done to ensure that riders are 
always safe when using the Metro system. In some ways, these 
problems are the result of past failures to invest adequately 
in long-term maintenance and upgrades.
    As the new 7000-series cars are brought into the fleet, we 
need to make sure that the tracks and tunnels that these new 
modern cars run on are up to date, as well. Metro safety and 
reliability is a critical concern for residents of Maryland's 
Fifth District, which is home to commuters served by all of 
Metro's lines.
    I am disappointed, as I know many are, that Metro needs to 
implement the SafeTrack plan in the first place. But it is 
necessary. We shouldn't be in a situation, however, where 
entire lines may be shut down for maintenance, and where the 
predictability and reliability of train schedules has been 
undermined. But I am very impressed with Mr. Wiedefeld's 
leadership and his determination to take the steps necessary to 
put Metro back on course to be a system that all in our region 
and in our country can be proud of.
    We have a ways to go before we can get to that point. But 
it is encouraging that WMATA's leadership is fully committed to 
putting passenger safety first, and is acting to improve safety 
in the near and in the long term.
    Mr. Chairman, I hope the subcommittee and the full 
committee will support investments in Metro's safety and 
service, so that the SafeTrack plan will be as successful as 
possible as quickly as possible. Congress has a responsibility 
to make sure that the Metro system, which we call America's 
subway, can well serve those who serve American citizens, as 
well.
    I want to thank Ranking Member Eleanor Holmes Norton for 
her untiring advocacy on behalf of Metro and all those who ride 
it.
    And Mr. Chairman, I want to assure you and Mr. Shuster and 
Ms. Norton and Mr. DeFazio that the Washington metropolitan 
delegation is united in its determination to ensure, working 
with you, that America's subway is a subway system second to 
none. Thank you very much.
    Mr. Graves of Missouri. Thank you, Congressman Hoyer.
    Next is Congressman Connolly.
    Mr. Connolly. Chairman Graves, Chairman Shuster, Ranking 
Members Norton and DeFazio, thank you so much for having us 
here today. I am delighted to join with my colleagues, Mr. 
Hoyer and Mr. Delaney.
    I serve as the ranking member of the Subcommittee on 
Government Operations of the Committee on Oversight and 
Government Reform, which held its own hearings on Metro in the 
wake of the L'Enfant Plaza tragedy. The challenges facing Metro 
are significant, and I welcome collaboration between our two 
committees to ensure robust oversight over Metro's management 
of Federal dollars and adherence to Federal safety standards.
    I spent the last 22 years working on Metro, first as a 
member of the Fairfax County Board of Supervisors, where as 
chairman I made appointments to the Metro board and approved 
the local operating subsidy. For the past 8 years I have worked 
with you and your colleagues here on this committee to secure 
the $150 million annual Federal commitment for Metro safety 
improvements, which is matched dollar for dollar by Virginia, 
DC, and Maryland. No one is more disheartened than I am with 
the unacceptable and unsustainable state of affairs at Metro.
    I want to start by commending this committee for your 
efforts, through MAP-21 and then the FAST Act, to create a 
comprehensive framework of safety standards for Metro and all 
of the Nation's transit systems. As the NTSB [National 
Transportation Safety Board] and the FTA have highlighted again 
and again, Metro's current local safety agency, the Tri-State 
Oversight Committee, is nothing more than a paper tiger without 
the proper resources or tools to provide effective oversight.
    Our partners in Virginia, Maryland, and DC are working 
together to stand up a new Metro safety commission next year 
that will meet and enforce the new Federal standards. Until 
then, Secretary Foxx, acting under new authorities in the FAST 
Act, has appointed the FTA as the interim safety oversight 
agency. While I respectfully disagreed with that action, 
deferring instead to the NTSB's recommendation to use the FRA's 
[Federal Railroad Administration's] more robust safety 
standards, I share the committee's and Secretary's ultimate 
goal for addressing the shocking lack of safety culture within 
Metro.
    To that end, I welcome an opportunity to work with you to 
explore further expanding the FTA's authorities to better match 
not only the oversight, but also the enforcement authorities 
under the FRA to address the NTSB's urgent safety 
recommendations. In fact, Metro's new general manager has 
indicated he is voluntarily directing his team to explore what 
FRA standards they can apply on their own. Regardless of what 
style of transit commuters are using, they deserve to know they 
are being protected by effective and enforceable Federal 
standards.
    What we are witnessing today with Metro is the result of a 
decades-long march into mediocrity and dysfunction. Riders are 
now confronted with near-daily service or safety delays, 
including today, Mr. Chairman. And incidents of arcing or smoke 
in the tunnels have become all too frequent and, frankly, are 
scaring riders away. Recent arcing incidents led the general 
manager to take the unprecedented step of shuttering the entire 
National Capital subway system for 24 hours in March. And 
earlier this month, the two stations serving Capitol Hill were 
closed during the evening rush hour.
    Mr. Wiedefeld recently released an aggressive proposal to 
single-track and shut down portions of Metro lines for days at 
a time in order to condense 3 years' worth of deferred 
maintenance--3 years--into 1 year. This will present 
significant and sustained challenges to riders in the Federal 
Government. Federal employees account for 40 percent of all 
Metro riders. So we have called on OPM [Office of Personnel 
Management] and all Federal agencies to push telework and 
flexible work schedules during this time.
    Of course, Metro cannot focus only on track and 
infrastructure repairs. A complete systemwide change in culture 
is necessary. Safety and personnel actions already taken by Mr. 
Wiedefeld should serve as a shot across the bow that 
indifference to safety and customer service will no longer be 
tolerated.
    These are not problems that can be fixed overnight. Metro 
and its partners face a monumental task, and the Federal 
Government must be a full-funding partner in this effort. And I 
welcome the opportunity to work with this committee to explore 
options for expanding our Federal commitment, to include 
operating subsidies. The Federal Government is the only compact 
member that does not pay any share of operating subsidies.
    We also must incentivize the National Capital region to 
finally create a dedicated source of revenue for funding Metro. 
These are separate but equally important investments critical 
to Metro's future success.
    Metro, Mr. Chairman, has been our single greatest regional 
achievement, and in many ways our single biggest 
disappointment. Working together we can restore America's 
subway to the place of prominence it once held, and setting the 
standard for other transit systems across the Nation, giving 
our riders the world-class system they so sorely deserve. Thank 
you.
    Mr. Graves of Missouri. Thank you, Mr. Connolly.
    Next is Representative John Delaney.
    Thanks for being here.
    Mr. Delaney. Thank you. I want to thank the chair and the 
ranking member and all of my colleagues for giving me this 
opportunity to discuss Metro with you today. It is, obviously, 
something that is very important to my constituents, many of 
which use this system on a daily basis. It is also important, 
as we know, to everyone who lives in the National Capital 
region, and to all the visitors of our Nation's Capital.
    Clearly, Metro is an organization in crisis with 
significant deficiencies around safety, around reliability, 
around customer service, and around financial management. And 
if you diagnose the problems with Metro, you realize there are 
several causes.
    The first Ranking Member Norton discussed, which is Metro 
effectively reports to four governing jurisdictions; DC, 
Maryland, Virginia, and the Federal Government. This four-
headed monster makes it very difficult for Metro to get the 
kind of funding and oversight that would be optimal for an 
organization of its scale.
    Secondly, as Ranking Member DeFazio talked about, by any 
measure Metro has been underfunded, and it has lacked a 
reliable source of funding, which has created greater 
uncertainty, and made the underfunded situation even more 
pronounced.
    And finally, it has clearly been mismanaged, perhaps for 
several decades. When you look back at management decisions, 
whether they be strategic or tactical, that, clearly, poor 
decisions were made. I, like you, want to exclude the current 
general manager from that criticism because I, like you, share 
the view that he is off to a very good start and we should be 
very supportive of him.
    But I think there is another issue that needs to be 
considered when you talk about what is going on with Metro, and 
this gets to Chairman Shuster's comments about culture, which 
is Metro has clearly had a deficient culture, as it relates to 
its priorities. And I think that raises a governance question. 
In other words, what is happening in terms of the board, the 
board of directors, in the governance and management of Metro?
    As someone who spent my whole career in the private sector 
chairing two publicly traded companies and also being on the 
board of very high-performing nonprofits, I think governance 
really matters because a good board sets the correct mission, 
sets the correct strategic goals. Their most important 
responsibility is to recruit management, to hold them 
accountable; if they are not living up to the goals, make 
management changes; and to secure the funding that the 
enterprise needs.
    And the way they secure the funding is by making people 
believe that they are actually running the place right. And I 
think this is a significant question with Metro. Right now, 
Metro has a 16-person board. Four of those members are 
appointed by each relevant jurisdiction. And currently, there 
are no standards for who those members can be.
    Mr. Shuster--or the chairman, I think you said you can't 
legislate certain things. One thing you can't legislate is good 
governance. But you can do things to make sure we have the best 
people possible sitting around the table, making these 
decisions, instead of maybe just elected officials or instead 
of just people who were given a board spot because they raised 
a lot of money for their relevant elected officers.
    And so, what I have tried to do is put forth--and 
Representative Comstock has been supportive of this with me--
put forth a framework where the jurisdictions will be required, 
as part of their appointment process, to certify that the 
members that they are appointing are experts in either finance, 
in management, in transit, or in safety. I think this will put 
people with more qualifications and more experience around the 
board table at Metro, and I think it will encourage maybe 
longer term thinking, because my sense is these people will 
probably have more experience in board governance matters, and 
they won't think about their own unique interests in the 
particular jurisdictions they represent, but spend more time 
thinking about the good of the whole enterprise, which is what 
a real fiduciary should do.
    So I think, to talk about specific things we can do to 
change the culture, in addition to getting more funding, in 
addition to supporting the new management changes, I think 
there are some important things we can do around governance. 
And I applaud Secretary Foxx, who is actually taking a step in 
this direction. He recently changed all of the Federal 
appointees to the board, and put up four people who clearly 
have expertise in safety, which is something we support.
    But we would also like to see some people sitting around 
the table who have finance experience, management experience, 
and real transit experience, so we get some real experts 
thinking long term for the good of the enterprise, creating the 
right mission, getting the right management team in place, and 
holding them accountable. And I think, over time, that can 
change the culture of Metro.
    So I appreciate the opportunity to be here with you.
    Mr. Graves of Missouri. Thank you very much, all three of 
you. And with that I will dismiss the first panel and we will 
bring the second panel up. Thank you very much.
    Ms. Norton. Mr. Chairman, while the second panel is coming 
up, I would like to ask that the statement of Representative 
Chris Van Hollen, a Member who represents a jurisdiction in 
this region, be admitted to the record.
    And I would like to ask unanimous consent to correct the 
record, and to have a chart that shows Federal funding for 
WMATA, compared to other transit agencies. WMATA receives 19 
percent of its budget from Federal contributions; 17 percent is 
the industry average. On fares, WMATA's fares cover 32.6 
percent of its budget, where the industry average is 23.3 
percent. And I ask that this chart be entered into the record, 
as well.
    [No response.]
    Mr. Graves of Missouri. Without objection, so ordered.
    [Mr. Van Hollen's prepared statement and the chart offered 
by Ms. Norton for the record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Graves of Missouri. Now I would like to take this 
opportunity to welcome our second panel.
    We have Mr. Paul Wiedefeld, who is the general manager of 
the Washington Metropolitan Area Transit Authority; Ms. Carolyn 
Flowers, who is the Acting Administrator, Federal Transit 
Administration; and the Honorable Tim Lovain, Chair of the 
National Capital Region Transportation Planning Board of the 
Metropolitan Washington Council of Governments.
    And with that I would ask unanimous consent that our 
witnesses' full statements be included in the record.
    [No response.]
    Mr. Graves of Missouri. And without objection, that is so 
ordered. And since the written statements are going to be 
included in the record, I would request you try to limit your 
comments to 5 minutes.
    And with that, Mr. Wiedefeld, we will start with you.

   TESTIMONY OF PAUL J. WIEDEFELD, GENERAL MANAGER AND CHIEF 
    EXECUTIVE OFFICER, WASHINGTON METROPOLITAN AREA TRANSIT 
   AUTHORITY; CAROLYN FLOWERS, ACTING ADMINISTRATOR, FEDERAL 
    TRANSIT ADMINISTRATION; AND HON. TIMOTHY LOVAIN, CHAIR, 
    NATIONAL CAPITAL REGION TRANSPORTATION PLANNING BOARD, 
         METROPOLITAN WASHINGTON COUNCIL OF GOVERNMENTS

    Mr. Wiedefeld. Good morning, Chairman Graves and Ranking 
Member Norton and members of the subcommittee. Thank you for 
the opportunity to testify today. I am Paul Wiedefeld, general 
manager of the Washington Metropolitan Area Transit Authority, 
also known as Metro.
    What I thought I would do is just summarize very quickly 
what my priorities have been since I joined November 30th for 
the agency, talk a little bit about what we are up against and 
what I am trying to do about it, and then just wrap up with 
some concluding remarks.
    In terms of what my priorities are, obviously, safety, 
service, reliability, and fiscal management. And so, what we 
are up against, I think it is important just to step back and 
think about the physical nature of what we are up against 
before we get into some of the management issues. But I think 
we have to recognize that this is a two-track railroad system 
which presents a lot of challenges for maintenance, because you 
cannot maintain the system without impacting the customers is 
basically what we have here.
    And you add on top of that decades of delayed maintenance 
and underfunding onto that, that has created a lot of the 
issues that we are dealing with. On top of that is an aging 
fleet, the cars, the trains themselves. So that is on the rail 
side.
    I think it is also important to recognize that Metro is 
more than just rail, it is also a very major bus system. We do 
almost 600,000 people a day on the bus system alone. And in 
that case we have a much better fleet, but we do have some 
basic infrastructure services, as well, that need to be fixed, 
particularly in garages.
    In terms of the agency, what I found is what I have heard 
echoed here, is both a lack of safety and service culture 
within the organization, and it permeates throughout the entire 
organization, both management and frontline employees.
    There has been a lack of accountability on the management, 
on the frontline people, and also a lack of strong management 
systems put in place.
    There has been a lack of a sustainable and predictable 
funding source over the decades for this system. We are facing 
ridership decline. Part of that is self-inflicted by some of 
the performance levels that we have provided, but also just the 
change in demographics in the region and the way that we 
travel.
    Our paratransit, MetroAccess, is also increasing in demand. 
It is one of our most expensive services, and we need to think 
about how we provide that service, as well, to that part of the 
community.
    Crime, as was mentioned, is a concern for all transit 
agencies. Unfortunately, we have had some terrible and very 
visible incidents on our system recently, both on our 
passengers and on some of our employees. And always in the back 
and front of my mind is terrorism, and we always have to make 
sure that we are doing everything on our part to be prepared 
for anything that may occur there.
    So, what are we doing? In March, I released a Customer 
Accountability Report, where basically there are 60 action 
items that we have outlined of what we are doing to both 
increase the overall performance and the customer service 
portion of what we do. I did release several weeks ago the rail 
maintenance plan called SafeTrack. Basically, the current 
approach, in my estimation, is not working. We need a much more 
holistic and transparent process for how we go about that 
upgrading of the tracks.
    I have been working very closely with our manufacturer of 
the train sets, which is Kawasaki. We now have 134 property, 
have 120 in service. That is the 7000 series. We have 748 of 
those ordered. And as soon as we get those to the point where I 
am comfortable we are delivering what we paid for, we will 
start to increase that delivery of those cars.
    The bus fleet is maintained well, and will continue in that 
area. On the MetroAccess we are looking at brokering some 
outside third-party vendors to provide better service for 
there.
    In terms of safety and service culture, that starts with me 
basically driving home that that is the most important thing 
that we do. Recently I have come out with a number of things to 
reinforce that. Safety trumps all. We now have our track 
inspectors, and people that have the ability to understand the 
system can shut down the system at any time if they see 
something that they want to get out and look at, which was not 
the case in the past.
    We have a new chief safety officer, which I just brought in 
early this month. We are looking at--the police are doing a 
Metro--basically constantly where we monitor the system every 
day, literally minute by minute, to apply our resources. And we 
are adding new resources there. And of course, we are working 
with the Joint Terrorism Task Force.
    The good news is that the system over the years, 40 years, 
had driven the economic development and, really, our culture 
here in this region. And the business community is behind it, 
elected officials are behind it, and the riders are behind it. 
My job is to get it performing better, and then we will deal 
with other issues from my perspective into the future. But 
again, my priorities are on the safety, service, and the fiscal 
management, and that will continue to be my focus in the near 
term, and we will deal with the larger issues as we go forward.
    So with that I will be glad to take any questions.
    Mr. Graves of Missouri. Thank you very much.
    Ms. Flowers?
    Ms. Flowers. Thank you, Chairman Graves, Ranking Member 
Norton, Chairman Shuster, members of the subcommittee. Thank 
you for inviting me to report on the Federal Transit 
Administration's work to improve safety and reliability at 
WMATA. Together, safety and reliability comprise the minimum we 
should expect from public transportation. And yet, on both 
counts WMATA has fallen short.
    In recent years the result has been not only delay and 
disruption, but also injury and fatality. Our goal at FTA is to 
make sure that WMATA restores safety and reliability for its 
riders and its employees. We are conducting on-the-ground 
inspections, leading accident investigations, and directing 
safety improvements that WMATA must make. To do this we are 
exercising the authority Congress provided our agency.
    Congress first authorized FTA to oversee the public safety 
of transportation systems under MAP-21, and the FAST Act 
strengthened FTA's ability to set national standards and to 
enforce them. Over the course of the past 4 years we have 
worked with transit industry stakeholders to develop 
regulations that would be effective, enforceable, and 
adaptable, the opposite of one size fits all. Where State 
safety oversight agencies do not exist, or where they fail, 
Congress gave FTA the statutory authority to step in. And that 
is where we are today in the DC metro area.
    As Secretary Foxx has made clear, FTA's direct oversight of 
WMATA is temporary. Virginia, Maryland, and the District of 
Columbia must set up a new State safety oversight agency that 
is fully functioning, compliant with Federal requirements, and 
capable of providing effective oversight.
    Nonetheless, since FTA assumed oversight, we have been able 
to work with WMATA to get results. WMATA has made steady 
progress in addressing the findings of our initial safety 
management inspection last year, and they have responded to 
troubling deficiencies we discovered at the rail operations 
control center. And as a result of findings from FTA's safety 
blitz in April that looked at three key areas--red signal 
overruns, track integrity, and rail vehicle securement--some 
track was taken out of service immediately to make repairs, and 
hundreds of defects have been fixed.
    In addition to identifying and ordering the correction of 
safety problems, we have also conducted a review of WMATA's 
grant applications to ensure that Federal funds are being used 
to address both FTA and NTSB recommendations. But most 
troubling, however, is the fact that WMATA has failed to create 
an enduring culture of safety. And although this problem goes 
much further back, I would like to talk about a recent example.
    On May 5th a third-rail insulator exploded alongside the 
platform at the Federal Center Southwest station. Although our 
investigation of this incident is ongoing, our preliminary 
information shows that WMATA's response to this event was slow 
and inadequate. In this event, operational convenience was 
clearly prioritized above safety. Not only did WMATA fail to 
notify FTA in a timely manner, but WMATA's own emergency 
response team waited hours for track access after only a 
cursory inspection was made and service was initially resumed. 
It was only later in the day when another fire occurred in the 
same area that track was taken out of service and the problem 
was thoroughly addressed.
    Such errors in judgment and breaches of safety protocol are 
simply unacceptable. Safety must come first before service. As 
a result, we issued a safety directive requiring WMATA to take 
immediate action to prioritize safety before operations, to 
mitigate fire and smoke risks, improve emergency planning and 
preparedness, and conduct a safety standdown. We have verified 
that WMATA has taken steps to address these immediate actions. 
And, to his credit, WMATA General Manager Paul Wiedefeld has 
been responsive to our safety concerns, and has demonstrated a 
commitment to safety.
    But the agency still has a difficult task ahead. Beyond the 
need for critical investments in infrastructure, every one of 
their employees must make a personal commitment to safety. At 
FTA we are working with WMATA and our colleagues from across 
DOT to help restore Metrorail's safety and reliability. Thank 
you.
    Mr. Graves of Missouri. Thank you, Ms. Flowers.
    And next we will hear from Mr. Lovain.
    Mr. Lovain. Mr. Chairman and members of the subcommittee, I 
am Tim Lovain, Chair of the National Capital Region 
Transportation Planning Board at the Metropolitan Washington 
Council of Governments. I also serve as a member of the 
Alexandria City Council.
    The Transportation Planning Board is a federally designated 
metropolitan planning organization for the National Capital 
region. It is responsible for a continuing comprehensive and 
cooperative transportation planning process in this 
metropolitan area that includes 22 jurisdictions and over 5 
million residents.
    I would like to thank Chairman Graves and Ranking Member 
Norton for the opportunity to appear before you today to share 
my observations on the importance of Metro to this region. I 
have submitted more detailed testimony, so in my oral remarks I 
will emphasize three things: first, how critical Metro is to 
our region's mobility and prosperity; second, its importance to 
this region's largest employer, the Federal Government; and 
finally, the efforts underway to help Metro improve its safety 
and service reliability and be the world-class system the 
Nation's Capital deserves.
    Last year Metrorail provided 710,000 rail trips on an 
average workday. Two million jobs, more than half of all jobs 
in the region, are located within a half-mile radius of 
Metrorail stations and Metro bus stops. Seventy-seven of the 
ninety-one Metrorail stations are in fifty-nine regional 
activity centers, our region's priority locations for growth. 
Eighty-six percent of this region's new office construction is 
occurring within one-quarter mile of Metrorail stations.
    Metro helps to tie our multistate region together. It will 
also shape future transportation and development patterns, 
helping our region accommodate an additional 1.5 million people 
and 1.1 million jobs over the next 30 years. Already, one in 
five Metrorail riders come from zero-car households.
    Metro also serves a unique role in helping this region 
accommodate extraordinary special events. For example, Metro 
provided 1.1 million rail trips on Inauguration Day in 2009.
    Metro especially helps the Federal Government do business. 
As has been noted, the Federal workforce represents 43 percent 
of Metro's morning peak period commuters, and about 40 percent 
of this region's Federal workforce use the Metrorail system.
    According to GSA [General Services Administration], 315 
buildings with Federal offices or labs, not including the DOD, 
are within one-half mile of Metro stations, and it is GSA 
policy to try to locate future Federal office space near Metro.
    The Federal Government has recognized Metro's importance to 
its operations through its financial contributions to the 
system's initial construction, the Silver Line, and the state-
of-good-repair funding under the 2008 PRIIA [Passenger Rail 
Investment and Improvement Act]. It is very important that this 
Federal funding program for Metro be retained, as it is 
critical to undertaking and completing needed safety and state-
of-good-repair work.
    Metro's importance is magnified by the fact that 
Washington, DC, is the most important national capital in the 
world. Our 19 million annual visitors to this region come from 
around the country and around the world. Their impressions of 
the DC region and our Nation as a whole are shaped, in part, by 
their experience of the Metro system. This region deserves a 
world-class transit system. When Metrorail opened 40 years ago, 
it quickly gained a reputation as a world-class system, and we 
need to restore that reputation.
    We certainly acknowledge that Metro is facing some 
significant challenges to ensure levels of safety and service 
reliability that characterize a world-class system. Improving 
the safety and reliability of the Washington Metro is the 
number-one priority in this region. This issue has the full 
attention and commitment at the State and local government 
levels within this region, and we are pleased that the Federal 
Transit Administration has been an active partner.
    This work of improving safety and reliability is being 
tackled on many fronts. On the safety oversight front, FTA is 
providing the lead, working with the States. On the management 
front, we are very pleased that Paul Wiedefeld, in his short 
tenure, has taken bold actions to address these challenges and 
begin restoring the trust and pride of Metro riders. There is 
more work to be done, and our region has come together to work 
on it.
    One additional and important resource that is needed to 
address the safety and reliability challenges, but is beyond 
Mr. Wiedefeld's power alone to fix, is the need for funding 
reform. I believe Metro is the only major rail transit system 
in the country that does not have a dedicated source of funding 
for its operations and state-of-good-repair needs. I believe 
that lack of dedicated funding has contributed to Metro's 
maintenance shortfalls. That is why regional leaders are 
coordinating through the Council of Governments and the Greater 
Washington Board of Trade to explore how we can work together 
at the State and local levels to provide long-term, 
predictable, sustainable, dedicated funding support to meet 
Metro's needs. And we look forward to continued and hopefully 
increased financial support from the Federal Government, as 
well.
    I am confident that this region and the Federal Government 
can continue our partnership and rise up to address Metro's 
challenges. Working together, we can make Metro a regional and 
national asset for decades to come.
    Thank you.
    Mr. Graves of Missouri. Thank you very much. We will now 
move in to questions. And my first question is for Mr. 
Wiedefeld.
    NTSB investigations of different WMATA incidences from 1982 
all the way up to last year have unfortunately had very similar 
findings. It has come down to improper training of WMATA 
employees and inadequate emergency response by the operations 
control staff, which was pointed out by Ms. Flowers.
    Why didn't Metro--and there are two questions here--why 
didn't Metro provide better training and staffing for emergency 
preparedness? And the second question is what have you changed 
at the rail operations control center to make sure that--you 
know, that this doesn't repeat itself?
    Mr. Wiedefeld. OK. I can't speak to the history of what 
training they did. I know what we are doing.
    One of the things I have done is I did replace the head of 
the rail operations center in April. So I have a new head 
there. We have added additional staff there. We have a much 
more robust training program that came out of some incidents in 
the past. We have staffed up. We have a fire liaison, for 
instance, now, 24/7. When I got here it was for 16 hours of the 
day; we now have him 24 hours, because a lot of the incidents 
we looked at, incident communication between emergency 
personnel and someone in the ROCC, in the Rail Operations 
Control Center.
    FTA is monitoring the activities daily, basically at the 
rail operations centers, to make sure that the proper 
procedures are being followed. We are doing--basically, we 
started spot testing of our controllers to make sure that they 
are part of all exercises. And, in effect, we throw curve balls 
at them during that--those exercises.
    So, it is an effort that we have to continue to work on, 
but we are moving in that direction.
    Mr. Graves of Missouri. I have a question for Ms. Flowers, 
too, which--the committee is concerned, obviously, about 
WMATA's safety and the reliability, for sure. But we are also 
concerned about the need for all the transit agencies all 
across the country, as to their efficiency. And, you know, we 
want them to be as productive as possible with the Federal 
resources that they are receiving.
    And my question is, what is the FTA doing to ensure that 
its transit agency recipients are most efficiently using the 
limited resources, you know, that they are receiving? And are 
you considering contracting out work via, you know--through 
competitive bid, whenever that is appropriate?
    Ms. Flowers, it is for the FTA.
    Ms. Flowers. OK. Chairman Graves, we have program 
management oversight, as well as grant management oversight of 
our grantees. And we do contract out some of that work, so that 
we can, on a national basis, monitor our over 800 grantees.
    Mr. Graves of Missouri. How about the work--so you 
monitor--or you contract out the work to monitor them?
    Ms. Flowers. Yes, and we perform tri-annual audits and 
enhanced audits on areas like procurement and financial 
management.
    Mr. Graves of Missouri. How about just when it comes to the 
work--you know, whether that is maintenance work or other 
things, too--putting that out for competitive bid? Do you ever 
encourage that?
    Ms. Flowers. That is determined at the grantee level, they 
make decisions on their procurements. But we do ask them to be 
effective in the use of our funds.
    I know that Mrs. Comstock mentioned that for WMATA the 
option of looking at contracting out would be something that 
she would encourage. Agencies do contract out to try to ensure 
that they effectively use our funds.
    Mr. Graves of Missouri. Thank you. And I have some more 
questions, but I am going to turn to Ms. Norton for her opening 
questions.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Ms. Flowers, I want to thank all of you at FTA for the new 
financial discipline you are instilling upon Metro. Quiet as it 
is kept, Metro's or WMATA's financial recordkeeping has 
mirrored the much more widely understood and known issues of 
safety, particularly financial accountability, a system that 
like safety, has been in disarray. That directly affects 
safety, of course, because most of the money that WMATA is 
getting is for safety.
    If you look behind some of the criticism WMATA has 
received, we are told that $783 million of Federal transit 
funding for WMATA is going unspent. So everyone assumes that 
WMATA is sitting on money, and that WMATA is really ineffective 
by not spending money it already has. So how could it want more 
money?
    But if you look behind these numbers, Ms. Flowers, you find 
that $300 million of it is obligated for safety projects and 
for new cars, and the remaining amount is waiting reimbursement 
by FTA.
    Now, according to the information we have been given from 
FTA, in order to bring itself into the compliance that is 
sorely needed--and again, I thank you for the discipline that 
apparently is working--WMATA has complied with all 45 
recommendations of FTA, submitted the required 65 corrective 
action plans, is working with FTA on a testing and validation 
plan, has closed 5 of the required testing and validation 
items, and has submitted 11 to FTA for review. The remaining 
four will be done at a later date, and will be submitted on 
time.
    Ms. Flowers, a recent inspector general report of FTA 
criticized FTA for not having consistent policies when it, in 
fact, undertakes a very serious matter, which is to withhold 
Federal funds which, in this case, means that the three 
jurisdictions have to pay. This report was entitled, ``FTA 
Monitored Grantees' Corrective Actions, But Lacks Policy and 
Guidance to Oversee Grantees with Restricted Access to Federal 
Funds.'' And it found, for example, with respect to WMATA--and 
here I am quoting--that WMATA was required ``to mail hard 
copies of its invoice packages to the PMOC contractor in North 
Carolina to review, which is a more time- and resource-
intensive process.''
    So, my question. Given the need for every penny WMATA can 
get, my question to you is can you specifically identify at 
what point WMATA will be able to return to normal restrictions 
and procedures for accessing Federal funds that the Congress 
has appropriated to it, rather than drawing down funds by hand, 
which can take anywhere from 10 days to 2 weeks for the money 
to get to WMATA for safety and for other matters?
    Ms. Flowers. We are onsite at WMATA, and we were there 
yesterday to work on a plan we call a snapshot plan to try to 
expedite the issues that you are talking about. We have also 
put into our regional office additional employees to ensure 
that we can expedite the WMATA drawdowns.
    I understand that, you know, the----
    Ms. Norton. Ms. Flowers, if they have complied in this way, 
what is left to be done? So that we can understand what is 
outstanding.
    Ms. Flowers. We are in the final steps of a verification 
process.
    Ms. Norton. So do you expect within a few months? Do you 
expect by the end of the year? When do you expect WMATA will be 
able to access its funds the way--in the normal fashion, rather 
than by hand?
    Ms. Flowers. In this last step, if we see that the 
documentation is verified, we should be able to, I think, have 
a targeted lifting of restricted drawdown in certain areas. 
There is some of the older stuff that I believe that will still 
be there, but we can work with them in terms of addressing 
targeted and focused areas to lift that drawdown----
    Ms. Norton. But you don't have a timeframe on when you 
might be able----
    Ms. Flowers. We----
    Ms. Norton. The burden is now on you. They have done what 
you have asked them to do.
    The reason I am pressing you on this question is if they 
have done all they had to do, the burden shifts to FTA, then, 
to say by when do you think WMATA will be accountable enough so 
that these by-hand drawdowns will no longer be necessary.
    Ms. Flowers. We are verifying that documentation, and I 
expect that in the next few weeks we will have completed the 
snapshot review phase of the verification process.
    Ms. Norton. Thank you very much, Ms. Flowers.
    Mrs. Comstock [presiding]. Thank you. I now recognize 
Chairman Shuster for 5 minutes.
    Mr. Shuster. Thank you very much. First I want to say that 
I appreciate the witnesses being here today to testify before 
this subcommittee. It's a really important issue. I also want 
to say I think Congressman Delaney's testimony was spot on. I 
think that one of the things he said is absolutely paramount in 
all this. That is when, if you want to attract the dollars to a 
corporation, an organization of any kind, you have to first 
demonstrate that you deploy those dollars efficiently to get 
things done.
    And I think that's something that before this committee and 
this Congress says we're going to give more money to Metro, 
we've got to see it demonstrated. And I don't think it's been 
done over the last several years or couple decades, that they 
have deployed those dollars in the most efficient way. And I 
think that requires a cultural change at the agency. Which I 
think that the new CEO, Mr. Wiedefeld, has really set the 
standard for, he said some tough things. And he needs to do it. 
He needs to take some tough actions.
    My question is to, to managing the employees. And I think 
if you're going to shake up a culture at an organization--and I 
spent 20 years of my life in business and had the unfortunate 
circumstances to have to terminate people. And I, when I 
thought about this question it brought me back to the first, 
one of the first hearings I had in this room 15 years ago with 
the EPA [Environmental Protection Agency] Associate 
Administrator for HR [Human Resources]. The previous Congress 
passed a law that said the Federal employees must follow the 
guidelines Congress sets in legislation.
    So my question to the EPA Administrator was, ``How many 
people in the last year''--that was 17,000 at the time, I 
believe. It was ``How many people did you fire?'' It took them 
a couple whispers back and forth to tell me that they fired one 
person. Now, terminating and firing people is unpleasant. Like 
I said, I've spent my life--but there are times when that, you 
have to. People that don't do the job. They're doing stuff 
that's unsafe, they're negligent, they're illegal. You need to 
terminate them.
    And so I, my question to Mr. Wiedefeld, do you have the 
tools necessary? And I know you're coming up to a contract 
negotiation soon. Do you have the tools necessary to, if you 
have a mechanic--again, I was in the automobile business--if a 
mechanic was negligent or illegal or unsafe, you try to work 
with him, but eventually, sometimes unfortunately you have to 
terminate him. Do you have those tools available to you that 
you're able to say to people that aren't doing the job, ``We've 
got to let you go''? Or are they locked in and protected, like 
so many of these Government agencies are, that you just can't 
do anything about it? And like the example, the EPA is perfect. 
Seventeen thousand people. They terminated one person. It's 
just, that's, that doesn't make sense.
    Mr. Wiedefeld. If I could, I'll come at it from two levels. 
There's the management side and then there's the frontline 
employees, which gets, I think, your second issue. In terms of 
the management, about 3 weeks ago I sent a letter out to 
roughly 650 at-will managers. And those aren't necessarily 
people sitting behind a desk. But those are your frontline 
supervisors and superintendents.
    I sent out a letter to all of them explaining what my 
priorities are and what, you know, my management style and what 
not. But more importantly, I had them sign a piece of paper 
that recognized that they were ``at will.'' Because I'm not 
sure all of them even understood that. Shortly after that I 
held a meeting with all 650 of them. It was the first time in 
my understanding of the history of the agency where we did 
that, where basically, again, I explained what we're doing. And 
that accountability is probably the most important thing they 
have to do besides safety and customer service.
    And then shortly after that, I did terminate a number of 
managers recently. And I have currently a review of the entire 
organization in terms of where there's redundancies or just 
over time, positions just haven't been dealt with. So that's 
ongoing. So I've continued to manage that. So that's on the 
overall management side, where I have a little clear 
capabilities.
    On the front line side, I do have the ability to let people 
go. We do have processes for that. It depends on what type of 
discretion. So for instance if a station manager isn't in the 
right uniform, they get a certain, you know, a certain ding. 
And you get a few of those, and you can terminate someone on 
that. To basically any major incident, I can terminate 
immediately. That does not mean they don't have the right to 
grieve. And we go through a whole process of that. And it is 
set up in the contract, as you mentioned. And that eventually 
can get to an arbiter. And we will pick an arbiter, the union 
would pick an arbiter, and then we'll both pick another one. 
And you know, it'll go through that process, which is the 
normal process. But no, I do have the, I do have the ability to 
do that, and we do do that on a regular basis, both on labor 
and management.
    Mr. Shuster. Well, thank you. And once again, I appreciate 
hearing that from you. Again, we've got to make sure that 
safety is paramount. The riders, people that ride this, whether 
they're from the area, whether they're from other parts of the 
United States, around the world, they deserve to have a safe 
system. And if there's somebody that's working for the Metro 
that isn't, then we need to make sure that safety is paramount, 
and we can't tolerate people that aren't doing their job. So 
again, I appreciate it and again wish you well and so far I've 
been very impressed with your management style so far. And so 
thank you for being here today.
    Mrs. Comstock. And I now recognize Ranking Member DeFazio 
for 5 minutes.
    Mr. DeFazio. Thank you, Madam Chair. Administrator Flowers, 
I realize you're briefly on the job. But you know, in MAP-21, 
we gave new regulatory authority to FTA over transit safety. 
And yet some critical aspects of that rule are still lingering 
somewhere. I don't know where they are. What's your expected 
timeline to get all those done?
    Ms. Flowers. Were you asking about FAST Act and MAP-21?
    Mr. DeFazio. There's things left over from MAP-21----
    Ms. Flowers. OK.
    Mr. DeFazio [continuing]. Where we gave you the new 
regulatory authority, but there are still pending rules.
    Ms. Flowers. OK.
    Mr. DeFazio. To fully implement that.
    Ms. Flowers. We just issued the State Safety Oversight Rule 
on March 16th. And we have several other rules that are in the 
review process right now. We have the Public Transportation 
Safety Program rule that is going through the process of review 
now at the DOT. And so expect that to be a final rule by 
midsummer. The National Public Transportation Safety Plan, this 
comment period ended on April 5th and FTA expects to issue that 
in early fall. We have the Public Transportation Agency Safety 
Plan. And that is also going to be out in early fall. And we 
also have the Safety Certification Training Program, which we 
expect to come out in midsummer.
    Mr. DeFazio. OK. Thank you. Well, just if you can stay on 
top of those and make certain that they continue through the 
process.
    You mentioned the same thing I did in my opening statement 
about the backlog in deferring maintenance. Obviously a lot of 
it lies with the larger legacy systems, and WMATA is a legacy 
system at this point, although we have much older legacy 
systems. And as I pointed out, it's really not an adequate 
amount of funds. You've had a chance and begun to look at 
WMATA, and there's a lot of focus on them. But do you believe 
that this problem could be more widespread given the deficiency 
in funding and the accumulated backlog for a state of good 
repair?
    Ms. Flowers. Yes, sir. You mentioned there was an $84 
billion backlog on a national level. Our estimate is that it's 
about $86 billion, growing at $2\1/2\ billion a year. And as 
you indicated, WMATA is one of those systems. The legacy 
systems probably make up 40 percent of that backlog. And so 
although the Administration has asked for additional funding 
for infrastructure, we haven't seen that funding come.
    And it does create an issue. It makes it a challenge for 
all transit agencies to look at their priorities. You see that 
challenge here in DC with WMATA, where they have to make 
decisions about what they can do with their available funding.
    Mr. DeFazio. Mm-hmm. Thank you. So, your inspector 
workforce--you're just standing up, essentially, your first 
inspector workforce, and their focus right now is WMATA. When 
do you expect that you'll have adequate staffing to begin to go 
out and look at other legacy systems?
    Ms. Flowers. We have a focus right now on WMATA and we have 
13 FTEs that are basically focused on WMATA. We have provided 
technical assistance in other areas where we have found 
problems. We have been given additional safety authority but 
not the funding to basically address that authority.
    Mr. DeFazio. So you have 13 inspectors total?
    Ms. Flowers. Thirteen staff. There's probably only five 
inspectors and two investigators.
    Mr. DeFazio. So we have five inspectors and two 
investigators for the Federal Transit Administration to oversee 
all of the transit agencies in the United States of America, is 
that correct?
    Ms. Flowers. That's correct.
    Mr. DeFazio. That's interesting. I wonder how long it would 
take if they spent 10 minutes at each one, how many years that 
would be. Yet alone an indepth look. I hope that Congress will 
soon allocate additional funds for the new obligations we put 
on your agency. Thank you, Mr. Chairman, Madam Chair.
    Mrs. Comstock. Thank you. I now recognize Mr. Mica for 5 
minutes.
    Mr. Mica. Thank you. And I can tell where to look for some 
of those dollars. In MAP-21, we passed legislation that was 
supposed to consolidate or eliminate 50 to 60 programs. When we 
questioned in the Committee on Oversight and Government Reform, 
how many people had left, there was nobody. So there are plenty 
of people and plenty of resources. I suggest you might tell the 
Secretary to find some of them to go into the important 
oversight responsibility for the transit systems, Ms. Flowers. 
Ms. Flowers, now you're--the--with some fanfare, the 
Secretary's announced a--what's the name of the position that's 
going to be created?
    Ms. Flowers. A senior advisor.
    Mr. Mica. A senior advisor. And that's just for WMATA, is 
that right?
    Ms. Flowers. That's correct.
    Mr. Mica. OK. Well, I don't want this to be window 
dressing. That's probably a good idea. You probably need some 
technical people to know what's going on and what we're looking 
for. But in order to make that effective, Mr. Chairman or Madam 
Chairman, I want you to report to the committee quarterly, OK? 
And I'll ask the staff for a quarterly report. Maybe we could 
have one in 3 months, September, end of September. Then one at 
the end of the year. And actually what you find, to get it back 
to us. Because I'm going to take some action in the next 
Congress.
    You know, I get enough votes and all that to get back here, 
and make people's life responsible and accountable. But we need 
accountability out of you all too. OK? It can't be window 
dressing. It has to be real. And some of the people are saying 
we don't give WMATA enough money. Again, my chart we brought 
out in oversight hearings, again, Mr. Wiedefeld, 60 percent of 
capital funds come from the Federal Government. It's one of the 
highest in the Nation. The closest is the chairman's operation, 
SEPTA [Southeastern Pennsylvania Transportation Authority] gets 
39 percent of its money, Philadelphia, operations there. That's 
correct about that percentage, right Mr. Wiedefeld?
    Mr. Wiedefeld. Yeah.
    Mr. Mica. It's pretty high. In our March 18th hearing, and 
just prior to that, I checked to see the amount of--``we gotta 
have money, we gotta have money''--we got $783 million the week 
before in Federal funds sitting at WMATA. Checked it. Do you 
have--and then the year before, we had $485 million in 2015, 
sitting there, not used by WMATA. Some of that money does have 
constraints on it, sir. Is there anything that needs to be 
changed so that that money can be used to make the improvements 
for safety that are necessary? Do you have enough flexibility 
in that? I need to know now, because we're doing appropriations 
for you. Tell me, yes?
    Mr. Wiedefeld. Yes.
    Mr. Mica. You do have the flexibility?
    Mr. Wiedefeld. We have the flexibility.
    Mr. Mica. OK. But the money was there. The money was there. 
OK. When you testified on the 18th, 65 percent of the arcing 
had been taken care of. Where are we today?
    Mr. Wiedefeld. We basically have a program that----
    Mr. Mica. What percentage would you estimate?
    Mr. Wiedefeld. I don't have the, I don't have the 
estimation.
    Mr. Mica. Are we at 70 percent? Have we made progress since 
March do you think?
    Mr. Wiedefeld. We have made, we have made progress.
    Mr. Mica. What's left? Twenty percent, ten percent?
    Mr. Wiedefeld. We have, we have, we have arcing, we have 
insulators every----
    Mr. Mica. I know. I've been out there. I've seen them. I 
went down to NTSB. I saw the coating. I saw them, some in 
water. Come on. But what percentage is done? Tell the 
committee. Get that to the committee. We need to know. That's 
where we're having problems right now. And that's not rocket 
science. How much of that is being done in-house, how much is 
contracted?
    Mr. Wiedefeld. With the SafeTrack plan, basically, we are 
using contractors to run----
    Mr. Mica. OK. So it's contractors. Most of your repairs, 
you can probably get done best by contract rather than in-
house, right?
    Mr. Wiedefeld. It's a combination of both.
    Mr. Mica. OK. OK. But again, we got to address the 
immediate problems, the arcing. Any safety. Are there any other 
major safety issues? Signalization? I heard you're doing some 
ties and things like that. What would you say are the next 
safety issues, real quick?
    Mr. Wiedefeld. It's a combination of the fasteners, the 
ties, the power cables, the actual running rail, and the 
insulation.
    Mr. Mica. And would you also submit to the committee a list 
of prioritization in which, and what percentage you think you 
can do in-house and out, not out-house, but outside. OK, 
finally, on that hearing, and you had to face me the first 
hearing. Sometimes I have a tough demeanor. I said, ``You need 
to fire people.'' I just saw the tape. I looked--it's part of 
my Italian background, I get a little emotional. Sir, you fired 
people. You fired about 20, I heard?
    Mr. Wiedefeld. Yes, sir.
    Mr. Mica. OK. I'm going to create a new award. You're going 
to get the first one. This is a certificate of appreciation. 
I'll probably make these into gold, into silver and bronze. 
You're going to get a silver. Because you actually responded 
since March 18th and took action and fired people. So this is 
the certificate. A special congressional recognition from me to 
you. If we could get more people in other agencies too.
    Mr. Wiedefeld. Yes.
    Mr. Mica. EPA, and on and on, to take the action you have, 
we'd have much better Government. Thank you for stepping up to 
the plate and doing your job responsibly. OK. Finally. If this 
doesn't work, in January when I come back, I will have a very 
nice--well, maybe I'll give you a little bit more time, sir. I 
will have a privatization bill to turn this over to private 
management if this doesn't work. But I think we're in fairly 
good hands, and I'm rooting for you.
    Mr. Wiedefeld. Thank you.
    Mr. Mica. Thank you, sir. And staff, would you make sure 
that the gentleman gets this certificate? This is unprecedented 
in 24 years in Congress. Thank you.
    Mrs. Comstock. Thank you. All right. Now, we'll recognize 
Mr. Sires for 5 minutes.
    Mr. Sires. Thank you, and thank you for holding this 
hearing, and thank you for being here. I got to Washington--I'm 
from New Jersey. We're one big transportation hub. I got to 
Washington 10 years ago. And I was all excited because I really 
heard this reputation for the Metro system. I went out and got 
my card, so I could use the Metro system here. But ever since I 
got here, the reputation and the efficiency of this Metro 
system has just gotten worse and worse and worse. And it's 
really, it's a shame, because this is the Nation's Capital. And 
at a time in America when people are moving into the cities.
    At a time when you look at Washington--I'm not going to 
give you a certificate, you know. At a time when you look 
around Washington, and they're all cranes. People are moving 
into the city and you get about 17 million people coming 
through the city. This city is choking in this traffic. And yet 
we have this system that was a gem. Now, we have less ridership 
than before. So the city, it impacts everything around the 
city. The economy of the city, the people coming to work in the 
city.
    We faced similar problems years ago through New York, and 
so forth. But I think this really has to be turned around or 
this city is going to stand still. The only people that will be 
able to move around here are the people cutting you off with 
the bicycles. And quite frankly, people deserve better. You 
know, people deserve a safe system. And as I looked, Mr. 
Wiedefeld, I don't want America to get the wrong impression 
because of this hearing and all of this going on here, but I 
see that you have action items.
    The FTA says 700 action items. You say WMATA has submitted 
482 actions. Can you tell me what's good about the system? 
What's left in the system that is good that we can work with 
and tell America, ``Look, this is a system that we can fix. 
This is, I want you to come to Washington, DC. I want you to 
use this system. I want you to get off the road''? We need to 
get people back in the system so the city can move around a 
little bit better. What's left that's good?
    Mr. Wiedefeld. If I may, we do move 1.3 million passengers 
a day. So the system does perform very well for the vast 
majority of people every. When it has a problem, it has a 
problem. There's no doubt about it. It gets back to the two-
track system that I had mentioned earlier. So whenever we have 
an issue, it impacts everyone very quickly. I won't lie. But 
that system does perform very well. And when you look at other 
systems, you know, they all have issues. I went to school in 
New Jersey. I worked up there for a number of years. I know 
some issues they've had, they've continued to have. They have 
major challenges in front of them. San Francisco is facing very 
significant issues. Atlanta is facing issues. We all have these 
issues. You know it's a very large infrastructure investment. 
But day to day, this system works very well.
    Mr. Sires. And also, the concern is the people in America 
moving back into the cities. So if we don't have a system that 
is safe, I think we're headed for trouble. And I know we have a 
responsibility. We have a responsibility to make sure that 
there's enough funding there for the infrastructure, enough 
funding for the safety part of it, and quite frankly, I just 
want America to know that, you know, Washington, you can still 
come and you still use the system. And we're going to fix it.
    Mr. Wiedefeld. You can. I was with a couple in from 
Colorado the other day. They didn't know who I was, and they 
got talking about the Metro and they had a great experience. So 
I mean, it does, it's, I think that's more common than we 
think.
    Mr. Sires. I want to thank you for being here and talking 
about the system. Thank you very much.
    Mrs. Comstock. Thank you. And I now recognize Mr. Webster 
for 5 minutes.
    Mr. Webster. Thank you, Madam Chair. I ride the Metro every 
day, for 5\1/2\ years, since I've been in Congress. I go from 
Pentagon City to L'Enfant to Capitol South. And I, you know, I 
think there's two things here. And we're talking about more 
money, maybe saving, hiring people, firing people, doing all 
that. But all I know is that every day I ride, there's an 
escalator broken. So I started watching three escalators. 
There's a bunch of them that I ride on, but this is three.
    And I would say that over the past few years, that these 
three that I've watched have been rebuilt four times. I mean, 
I'm talking about all new everything. All the treads. All the 
bearings and all of that. And it just seems to me like there'd 
be a more efficient way to do that. If we save money then we 
certainly can do more maintenance in the right place. I would 
tell you you ought to look, and I don't know if there's any 
reports or anything about that.
    But all I can tell you is, I know, because I've seen it. On 
the other end, there's one escalator that was, is privately 
done. And in the 5\1/2\ years I've been riding that one, on 
that same system where you get dropped off, and then this one 
is done by the people that own the building. It's been broken 
once in 5\1/2\ years.
    So I think there's probably--I don't know what you do as 
far as efficiency and as far as rechecking the people that do 
your maintenance and so forth. But if the other maintenance--
I've never been in a, in a wreck or anything like that, so I 
don't know anything about the cars. I see them. You know, they 
may be, you may have extra ones. You may change them out all 
the time. I don't know that. What I do know is, the escalators 
are fixed. They're there, and you got to have them repaired 
time and time again.
    And it just seems to me like, and I don't know if it's done 
by an independent contractor or by your employees or whether 
it's the, maybe it's the vendor that provides the actual treads 
and so forth on the escalator. But I would tell you I believe 
there's lots of savings to be found there, either by getting a 
different vendor or different employees or different, a 
different person that actually performs the work, if it's an 
independent contractor. So that's my two cents. That's only 
from my experience on it.
    I don't live here. I have one real system in my district. 
It's owned by Disney World. And I've never seen it broken in 
the 30-some years they've been there. And we have a lot of 
people that ride that too. We have 66 million people that come 
by my district every, every year. And they go one place, Walt 
Disney World. And also Sea World, Universal Studios. But the 
one rail system there seems to be much more maintained. So I 
would suggest maybe just talking to those who own or operate 
rail systems. Maybe there's some savings there too. With that, 
Madam Chair, I yield back.
    Mrs. Comstock. Thank you. And I now recognize Ms. Frankel 
for 5 minutes.
    Ms. Frankel. Thank you. And thank you to the witnesses. I 
know sometimes you probably sit in here thinking that Congress 
may do a better job at criticizing than fixing. Thank you for 
your patience and your courtesy. Also, I live near a subway and 
I rode the Metro. I used to love to ride the Metro. But 
they've, obviously these stories in the newspapers and on TV 
have been scary to me. So my first question is, could you 
quantify, has it been a decline in the ridership, and does that 
affect your budget? And the other question I have is also, with 
these very highly publicized criminal incidences, there was a 
young man that was stabbed multiple times. There was a woman 
that was recently sexually assaulted. And I don't mean to 
insinuate that that was the fault of Metro. What my question 
would be, is there anything that you can do to make it safer, 
or are you doing to make it safer, for the riders?
    Mr. Wiedefeld. Excuse me. The ridership levels first. Yes, 
we have had a drop over the last 5 years. It's a combination I 
think again, of some of the quality of the service that we've 
provided. But it is also just the change in demographics. 
Telecommuting, particularly in this region, is very strong. The 
growth of Uber. You know, rideshare. All kinds of things I 
think have impacted that.
    And we're not unique in that regard either. There's other 
properties around the country that have experienced some of 
that as well. Major properties. In terms of the criminal 
activity, it is an extremely safe system, from that 
perspective, numerically. It's very safe. It's five incidents 
per million, incidents per million riders, which is extremely 
safe. That means nothing to obviously the person that's the 
victim. And does not mean much for the perception.
    We have applied a number of things in terms of policing. We 
basically have put more police out there. We're moving people 
out from behind desks. We're moving people that used to, for 
instance, use our revenue train, which collect the dollars. 
We've contracted it out so we have armed officers out there, 
sworn officers out there. We have a major recruitment underway 
to beef up that area. In fact today we're meeting with the 
Metropolitan Washington Council of Governments, in effect, to 
have an agreement with all the jurisdictions where we could 
bring in moonlighting officers, sworn officers again, again to 
beef up the presence on the system. The reality is if you do 
something in our system we catch you literally within hours if 
not days. Every one of these incidents, for what it's worth, we 
are getting these people. These things happen in a matter of 
seconds. And with a vast open system, it's extremely difficult 
obviously to be everywhere at every time. But it's clearly a 
concern for our customers and for us, and we'll continue to 
work it. We're working with, for instance, the local school 
system on issues. We follow social media to monitor what's 
going on out in the community. And again, we apply the 
resources accordingly, you know, with the limited resources 
that we do have.
    Ms. Frankel. One more question. I see you got an award from 
one of my colleagues for firing. I think a better award would 
be for training. What are you doing about training so you don't 
have to fire?
    Mr. Wiedefeld. Yeah. Let me just, if I could, just I know. 
I get no pleasure. It is a, not a--that is the last thing I 
want to do is let someone go. You know. I understand the impact 
it has on their personal life. So that is the, that is the key 
is to train and bring people along. And again, it's not just 
management, but it's frontline employees. So that is part of, 
in my estimation it's part of the change of the culture. That's 
how you get to the safety culture, the customer service 
culture. It's not necessarily through discipline. You have to 
have that tool. But that is the last tool I would use 
personally. I think it's the last tool any manager wants to 
use. But on the other hand you have to use it when you need to 
do it.
    Ms. Frankel. Well, but what are you doing to up the 
training?
    Mr. Wiedefeld. Basically, there's a number of things. On 
the frontline people, we're focusing on the safety training 
right now, is one of our biggest things. Just basic. Even how 
we even ID our people for instance. We don't----
    Ms. Frankel. Are you--excuse me, are you holding classes, 
or what are you doing?
    Mr. Wiedefeld. Yes, yes a series of classes. We have 
outdoor, or outside vendors coming in, creating programs for 
us. We literally have to do it on an annual basis. We hadn't 
been doing that. We'd been letting it slip. Making sure that 
we're doing that. So it's recruiting people that come in that 
way. It's a combination of all of those.
    Ms. Frankel. This is required. Required, employees are 
required to go through the training?
    Mr. Wiedefeld. Yes. Yes. Every new employee spends 4 days 
in training the minute they walk in the door, just so they 
understand who we are and what we do.
    Ms. Frankel. What about continuing?
    Mr. Wiedefeld. And exactly, that's what they have to do. 
Some of them, literally, to have their identification badge, 
they have to have the training.
    Ms. Frankel. OK. Thank you very much. I yield back.
    Mrs. Comstock. Thank you. I now recognize Mr. Meadows for 5 
minutes.
    Mr. Meadows. Thank you, Madam Chairman. Let me come back, 
Mr. Wiedefeld, too, to you. Obviously we've had our dealings 
before. And I guess my concern is today, we've heard a lot of 
talk about funding. And the focus is all about funding. And yet 
I understand that perhaps this is not a funding issue as much 
as it is a management issue and truly a maintenance issue. Is 
that correct?
    Mr. Wiedefeld. I think there's an issue with the funding in 
terms of a dedicated and sustainable funding source. So I think 
that's, that's not something that necessarily means more 
dollars. It just means that we do not go through an annual 
budgeting process where we're competing against----
    Mr. Meadows. All right. So are you aware that at no time 
that we can find that the board has come to this committee or 
the Committee on Oversight and Government Reform to suggest 
that maintenance was not getting done because they didn't have 
funding? We can't find that.
    Mr. Wiedefeld. I'm not aware of that.
    Mr. Meadows. So if you're not aware of that, and this 
committee is not aware of it and the Committee on Oversight and 
Government Reform is not aware of it, how can we be focusing 
all of our attention on funding when your board has never let 
us know that they're not doing repairs because of funding?
    Mr. Wiedefeld. I just don't know the history of what the 
board has done with it.
    Mr. Meadows. All right. Are you aware that there's an 
average of four times a week, a fire actually occurs on the 
Metro system, and that makes it--there's a greater probability 
of somebody seeing a fire in the Metro of Washington, DC, over 
the last 5 months than there was in the Great Smoky Mountains 
National Park that I represent. Do you find that alarming?
    Mr. Wiedefeld. I do. I think it's, again, that's why the 
SafeTrack plan and all the implications of that is why I put it 
out there.
    Mr. Meadows. All right. So if we're looking at this board--
and I understand from a board member that you are, the buck 
stops with you. They're not going to micromanage. You're going 
to have complete authority to make this system safe, reliable 
and a service standard that we can all applaud. Is that 
correct?
    Mr. Wiedefeld. It is.
    Mr. Meadows. All right. If that does not happen, will you 
within 7 days let this committee and the Committee on Oversight 
and Government Reform know that you are being thwarted by the 
board?
    Mr. Wiedefeld. Again, I think, yes.
    Mr. Meadows. OK. I guess what I'm saying is, I'm making a 
request----
    Mr. Wiedefeld. Yes, sir.
    Mr. Meadows [continuing]. That if there is an interference 
by the board on any of the service related activity, will you 
report that to this committee and to the Committee on Oversight 
and Government Reform?
    Mr. Wiedefeld. Sir, if I may, again, I took this job to 
tackle these issues. If I am thwarted in any way, then I, 
that's not the job for me.
    Mr. Meadows. All right. So let me go back to the board, 
because a lot has been said about who the board should be, what 
the makeup should be. And I ran into a gentleman in the hall 
here a week or two ago and said, ``Really, the board should 
have someone who travels the Metro each and every day as a 
citizen advocate, so to speak, that is on the board.'' Do you 
agree with that?
    Mr. Wiedefeld. I know a number of the board members use the 
system every day.
    Mr. Meadows. OK.
    Mr. Wiedefeld. I don't know all of them.
    Mr. Meadows. But someone who speaks just--that doesn't have 
any political ties, that actually speaks for the populace, do 
you think that would not be a bad idea?
    Mr. Wiedefeld. I have that through rider's unions. I have 
that through a number of resources.
    Mr. Meadows. OK. All right. So the other thing I would say 
is, what if we took every one of the board members and required 
them for 1 week a year to experience what all the commuters get 
to experience each and every day? Do you think it would change 
their opinion on some of this?
    Mr. Wiedefeld. I get texts and emails from board members 
constantly about their experiences.
    Mr. Meadows. I mean every board member. Because there are 
some who obviously don't use the Metro and perhaps don't have 
the same appreciation.
    Mr. Wiedefeld. I think they all do use it. I just don't 
know, sir.
    Mr. Meadows. All right. So making that a requirement is not 
something that you would support?
    Mr. Wiedefeld. I think they use it today.
    Mr. Meadows. OK. All right. So let me, let me finish with 
the funding question. We're going to rely on you to make good 
management decisions and realign this. From a funding 
standpoint, do you think it is wise to continue to add 
additional capital improvements and extend the Metro when we 
don't have a good maintenance operating budget plan in place? 
Because that's really what we did. We invested billions of 
dollars in a Metro, like buying a new car, and then we didn't 
change the oil for 30 years. And so in doing that, do you think 
it is more prudent to have the maintenance of the existing 
system as a top priority versus the capital expenditure for 
expansion, until we get that in place?
    Mr. Wiedefeld. I think that we have the same experience 
that I think whatever the number is, $86 billion worth of unmet 
maintenance needs around the country, yet we still need to 
increase, you know the system, for economic reasons, for safety 
reasons, all kinds of other reasons. So I think, you know, 
there's a time for that. My focus is on the maintenance and my 
focus going forward is after we do this SafeTrack plan, we 
cannot back away from the ongoing maintenance or we will be 
right back where we started.
    Mr. Meadows. All right. I will yield back, Madam Chairman.
    Mrs. Comstock. Thank you. And I now recognize Mr. Lipinski 
for 5 minutes.
    Mr. Lipinski. Thank you. And I'm going to--before I get 
into the meat of things, there's a couple of things I want to 
make sure I get out there. And first of all I'll say that I 
started a few years ago in here the first Congressional Public 
Transportation Caucus because of how important it is that we 
support public transit across the country. Not just my hometown 
of Chicago but I'm also a Metro rider, when I'm out here. So 
first thing I wanted to mention, I'm going to have a question 
for the record about WMATA's recent cancellation of the new 
electronic payment program, which I know is designed to make 
the customer experience better.
    And too, reportedly it would have saved WMATA $60 million a 
year. I know there's much invested in this. And we certainly 
have a few challenges with the current fare collection system. 
So I just, I'm going to be asking a question for the record on 
that and what has happened with that. I want to move on. I just 
wanted to ask a quick question to Ms. Flowers. A recent assault 
on a DC Metro bus driver became deadly when the bus was 
hijacked and horrifically killed a pedestrian. And driver 
assaults are a national issue. The FAST Act asked FTA to issue 
a Notice of Proposed Rulemaking on driver assaults, which is a 
growing issue. Is--when will FTA issue its rulemaking?
    Ms. Flowers. Well, the first thing that we've done is that 
our Transit Advisory Committee on Safety has done a study on 
operator assault and given us some best practices and 
recommendations for preventing and mitigating transit worker 
assaults. So that's going to be part of the basis for the 
proposed rule. We're currently gathering information and input 
from the transit community as well as unions to inform this 
rulemaking. So we're in the process right now of working on 
that.
    Mr. Lipinski. Thank you. I want to probably come back to 
you later on this after the hearing, but thank you for that. I 
just want to say, this morning--I'm a Red Line rider. Wake up, 
hear there are two places they are single tracking. A report of 
an arcing incident. I said, I'm getting on my bike to ride the 
17 miles down to Capitol Hill, because I don't know when I'm 
going to get in. I think Metro in so many ways is unfortunately 
an embarrassment in our Nation's Capital. But it needs to work.
    So I'm not here to just tear things down. We need this 
system to work. I think the region needs to come up with a 
dedicated funding source for Metro. We can't do anything here 
in Congress about it, but I think that's something the region 
needs to do. We need, definitely there's a lot of talk about 
changing of the--we need to change the way people act within 
the system, the whole culture. And that's difficult to do. I 
thank you, Mr. Wiedefeld, for what you have, mainly things that 
you have done so far.
    I want to ask, I know the March 16th shutdown caused a 
significant inconvenience to many of the region's commuters. 
But 2 months after the shutdown, the FTA released a series of 
safety directives to Metro. Among them were things that appear 
to be routine maintenance, including removing debris, replacing 
insulators and third-rail cover boards. So I'm concerned about 
Metro's efficiency in conducting inspection and repair. 
Especially given the SafeTrack plan is about to begin.
    I want to be assured that if Metro is going to cause 
serious disruption to people's daily lives that you will be 
using the time to accomplish all the required maintenance. So 
first, were FTA's findings in May a result of the March 16th 
shutdown, or were those findings the result of previous 
inspections? Or what, what was, the May FTA findings, where did 
those come from?
    Mr. Wiedefeld. I think they reflected again the lack of 
ongoing maintenance and the ability to get out there and do 
that. And that's why the SafeTrack has the impacts it has. 
Because physically to get out there and do the level of work we 
need to do--because it's not just one thing.
    Mr. Lipinski. But do you know--were the May findings a 
result of, are those things that were found on the March 16th 
shutdown, or?
    Mr. Wiedefeld. You know, on the March 16th shutdown, we 
were looking at the power cables issue. Because that was----
    Mr. Lipinski. And so you just focused on that one thing?
    Mr. Wiedefeld. We were focused on that because of the 
L'Enfant accident.
    Mr. Lipinski. OK. So when Metro has completed the SafeTrack 
program, will it be in compliance with all Federal safety 
orders and recommendations?
    Mr. Wiedefeld. It will be. Yes, that's the plan. And the 
plan, again, it's not really just to meet it, but then we have 
to go beyond it and we have to maintain it.
    Mr. Lipinski. OK.
    Mr. Wiedefeld. It's one thing to get out there and do all 
these repairs, but if we don't keep doing that, then we're 
going to be right back to where we were.
    Mr. Lipinski. And one thing, very quickly. I noticed, I 
live--not only do I take the Red Line, I hear the Red Line 
going by, unfortunately all the time, where I, you know, sleep. 
When I'm out here. I heard for months a click-clack of every, 
every time the, a wheel set went over its track, for months. 
And then one morning I wake up and they say there's a broken 
rail just south of the Grosvenor Metro stop. And I said, ``I 
could have told you a long time ago that there was a problem 
there.''
    And it seems like there's somehow something wrong in the 
culture. Someone should have been able, and the operators 
should have said, ``Hey there's something, there's something 
wrong here.'' And that's, I think, all part of changing the 
culture here, where everyone is a part of trying to make this 
system run well. And that's something that really needs to 
change. There's a lot of work that needs to be done. We're 
going to be watching it. But we need to make this system work. 
Thank you. I yield back.
    Mrs. Comstock. Thank you. And I now recognize myself for 5 
minutes. I wanted to highlight the, an issue that I raised in 
my opening statement, and that I think I've talked about with 
Mr. Wiedefeld and Ms. Flowers. That our average costs at Metro 
are higher, according to the Federal Transit Administration 
documents that I'm reading, our operator expenses per vehicle 
revenue mile are 124 percent of the average. Up to our 
operating expense per passenger mile is 151 percent.
    And I think that works out to hourly rates of a track 
walker of $36 an hour and with benefits $53 an hour. Track 
repairs, $32 an hour with benefits up to $48. And that's 
compared to Davis-Bacon prevailing wage rates, they would be 
$23 an hour, and with benefits more like $30 an hour. And that 
leads to my question that I'd asked in the opening, is, can we 
use outside contractors, and can we change whatever we need to 
in the labor contract in order to expedite this so we can use 
outside contractors that are able to provide the same service 
at a lower cost basically at the Davis-Bacon prevailing wage 
rates, and get this expedited with that kind of expertise?
    Mr. Wiedefeld. We can, under the current contract, we can't 
replace workers with contractors. But if we have, and that's 
what we're doing, in effect we're bringing in workers above and 
beyond what our current workforce can do, so that's how I can 
bring in outside contractors.
    Mrs. Comstock. But are they getting paid this contractor 
rate that you have with the existing employees, or can they be 
brought in and get these, these $30 rates where we have 
contractors who will come in and work for lower rates during 
this expedited time when we're trying to save money, get things 
back online? We can deal with the contract and things later, 
but I just want to make sure we can take advantage of this 
opportunity to save some money here and have workers who can 
help with that.
    Mr. Wiedefeld. I can provide the----
    Mrs. Comstock. OK. Because I--we've met with people who 
would like to help there. So I would like to see if we can 
expedite that. And then on the technology front, as I mentioned 
in my opening statement, have--and excuse my language here--but 
have you, have you seen the Metro blog called ``Unsuck Metro''? 
I hope you're all familiar with that? I think a lot of--
certainly I can tell you a lot of staff on the Hill are 
familiar with it, and the Federal employees. How are we using 
technology? And actually, that's a good--I mean I looked at 
that this morning and throughout the hearing.
    One of their major questions they do want to know is about 
this rape incident, about the crime. So I would like you to 
address that. But I also wanted to address in terms of 
technology, why don't we in the interest of transparency, and 
to enable all of your riders to assist in some of things that 
Mr. Lipinski talked about, how can we plug into the system and 
go in and see, here's where all the recent crimes have been, by 
station? We should be able to have--we have the technology, at 
very low cost.
    I mean, if this blog can do this, certainly we can do it at 
little to no cost. Other than--I've spoken with the technology 
companies that are doing this in other metro areas around the 
country. And this technology enables us to look at the, do 
safety pictures. You know, while you're out there fixing it, 
you get a picture. You have the time stamp of the person 
working on it. So there's a lot of accountability. That can go 
up online immediately for all of us to see. And all of those 
hundreds of unmet safety issues right now, can we have them all 
online today? We can see where they are, at each station. And 
as they disappear, we can see them disappear. We can see new 
ones go online. And in your interest of transparency, can you 
commit to providing that as well as using the technology?
    Mr. Wiedefeld. Yes, I do commit to that. And with the 
SafeTrack program, that's what we're creating is the ability to 
effectively monitor what we're doing. That's what CARe is 
about, the Customer Accountability Report. It's, we put out 
every month, we update things that we're doing, so people can 
see where we are on that. But I'll also be very frank. You 
know, I think, I want to, I want to work with outside vendors 
and just the community in general to have that knowledge in the 
technology world. It's awfully hard for us to create that 
within the structure we have.
    It's also something that's not core to our mission. I think 
we have a lot of smart people in this region, if we could tap 
in. And you've seen it evolve. And so rather than--and you 
know, we have to think of ways to team with them, not ways to 
push them away. So that is something I've made very clear, that 
I want to bring those people to the table. Because they have 
the knowledge, they have the skill base. And again, just to 
open it up. We have nothing to hide. It is what it is. And then 
we have to start to attack it.
    Mrs. Comstock. And I think it's, and I, we talked about 
this with Ms. Flowers last week, when your staff came in too. 
And if we just had that ability for the public, when they see 
something, something like Mr. Lipinski said, that goes into the 
system and it can be time-stamped. We have the technology. I 
mean, if somebody had seen that fire that day, taken the 
picture and sent it in, are your folks tracking that and 
saying, ``OK, this is a picture that just came in from this 
station. It's time-stamped. It lines up.'' You don't have to 
send anyone out to the station, I mean, to verify that. You've 
got a picture that is time-stamped and does that. And I can 
give that to you as well as somebody who's paid $50 an hour to 
do it. So these time lapses that we have shouldn't be 
occurring, given we have the technology that can--I mean, 
really, when you look at the fatality that occurred, most of 
what we know about it occurred from people using their cell 
phones and giving us that information. And let's make sure 
we're using that to maximum effect, and that your staff isn't 
creating new methods, but is taking advantage of all that.
    Mr. Wiedefeld. I totally agree. But I also, I want our 
staff to basically do things before it gets to the point where 
they have to take a photo of it. An example I gave to the 
managers when I saw them is, at New Carrolton Station, in front 
of a cabinet that basically is an emergency cabinet for putting 
equipment onto the tracks to basically rescue people and to do 
things like that, we had parked or a vendor had parked a very 
large piece of construction equipment in front of it. That 
should not happen. I shouldn't need to be taking photos of 
that. That should just be something--error, employees see. And 
they say, ``That's wrong, fix it.'' So that's the, that's the 
cultural change that we have to get to.
    Mrs. Comstock. OK. And could we go back to that rape 
incident, that report.
    Mr. Wiedefeld. Yes.
    Mrs. Comstock. Why wasn't that made public at the time?
    Mr. Wiedefeld. Sure.
    Mrs. Comstock. Why didn't we know about that?
    Mr. Wiedefeld. Because it was solved in hours. We knew who 
the person was and they had that person. So they were, they 
were pursuing that person, and literally in hours we had 
apprehended that person. We do report out all crime statistics 
on a regular basis, quarterly at a minimum to the board, where 
we go through every, every event that we have. So----
    Mrs. Comstock. But can that also be reported, to have those 
crime statistics on the Web site by station or by whatever way, 
so that we all know that immediately? I appreciate that it was 
solved quickly. I guess the criminal used a smartcard? Is 
that----
    Mr. Wiedefeld. Yeah, it's a combination of that and then 
our TV cameras, and definitely----
    Mrs. Comstock. So while that was resolved quickly, the 
public at large didn't know about it, and that, you know, in 
reading the blog that's somebody--something that everyone's 
concerned about. So can we take those crime statistics----
    Mr. Wiedefeld. Sure.
    Mrs. Comstock [continuing]. Whether it's, hey there's 
somebody who's at Capitol South snatching purses--I understand 
cell phones being stolen are one of the most common things that 
happen at the stations because people are there looking at 
them, they aren't paying attention. Someone snatches it, runs 
out the door. Can we have those kind of incidents per station 
reported so that people know the stations they're going to, 
they can look, they can see what is going on there in real 
time? And just having all that, statistics. Now, I think what 
will also help you in that way, if we have that available, is 
all of our transportation resources, universities that are 
looking at data, you'll give them a vast amount of research 
data to help you do some work, you know, that you don't have to 
pay for.
    Mr. Wiedefeld. Yeah, we will provide that type of data. I 
think we have to put it in context of you know, we're just part 
of the community. And a lot of these things happen around us. 
Sometimes they happen on our property and sometimes they don't. 
So I think, you know, if someone stealing someone's camera, it 
happens just as likely outside of our stations as inside of our 
stations.
    Mrs. Comstock. But I just think the information is power 
for the customers. You know, as you've heard, people are 
becoming more afraid to use it. I wanted to mention, in 
addition to our costs being higher, 120 to 150 percent--are you 
confident you can bring those costs down in the upcoming 
negotiations?
    Mr. Wiedefeld. We will--we've started negotiations 
obviously, but we, you know, we've made a commitment to do that 
at the table. We are focusing on both wage, pension, health 
benefits and work roles. So we will attack each one of those, 
but it is a negotiation. And it does go to binding arbitration.
    Mrs. Comstock. OK. And I wanted to point out and emphasize 
that given our costs are 120 to 150 percent higher, it's 
incredibly distressing that our performance I believe is at 75 
percent, our entire performance now, when our transit system is 
up in the high 90s. So that's the disconnect that people see, 
and the concern. So thank you. And I know I've run over my time 
here. I now recognize Ms. Esty for 5 minutes.
    Ms. Esty. Thank you very much. And I want to thank you all 
for joining us here today. And as somebody who as a high school 
student was in those Metros when they were being built, with my 
father, who as part of construction teams building them, I have 
particular interest in the legacy around how we maintain these 
systems. So a couple of different questions. First, Mr. 
Wiedefeld, on the safety culture, who are you looking at? What 
organizations or what institutions do you think we should be 
looking at to inculcate the kind of safety culture that needs 
to be instinct?
    Mr. Wiedefeld. Right.
    Ms. Esty. It needs to be instinct, and I believe it does 
have to be from the top. There's no such substitute for that.
    Mr. Wiedefeld. OK. I've spent 10 years. I've run into, at 
BWI airport, and I think that's a great example. And the 
aviation community in general is. It is just part of who you 
are, when you think about safety in an airport. And I'm trying 
to instill that, you know, that same sort of philosophy and 
just sort of, it is who you are when you work at the transit 
agency.
    Ms. Esty. I would agree. You know, I think checklists, 
manifests, are the sort of idea that you just, that it's baked 
into absolutely every decision that you make. And to empower 
workers to see that as their responsibility to get there first 
on following up on what the subcommittee chair Mrs. Comstock 
said. I think you look at something like Click it, Fix it, that 
is being done in cities to empower people who are users of the 
system, not as adversaries but as advocates for making sure 
that the highest priority situations are dealt with first.
    So again, I, having recently been in Silicon Valley, there 
are a lot of entrepreneurs who are very eager to try to help 
democracy work well. And I think we need to find some way to 
tap into their energy and their intellectual capital in a way 
that helps us launch into the 21st century and not be tied up 
so much in frankly trying to update our computer systems that 
are three generations old. So I think a number of us are eager 
to try to help make those connections.
    For Administrator Flowers, we have an ongoing issue, and it 
is not unique to transit, about the excitement about developing 
a big new system, whether it's a bridge or a road or an 
airport. We never put enough money aside for maintenance. For 
these heavily used transit systems it's absolutely essential, 
given what has happened here. Do you have suggestions for how 
we insist it is actually being spent as we go, that it cannot 
be postponed? Because we know that is the political imperative, 
is you'd rather go on and do something new, extend the system, 
whatever it is. Maintenance is never exciting. It's not sexy. 
But it is a disaster when the worst happens. Do you have 
suggestions for us as to how to restructure the deployment of 
that money or the incentives around it to make sure that it 
gets spent as it needs to be as we go?
    Ms. Flowers. One of the criteria that we look at with the 
financial plans for new capital projects is to ensure that in 
the financial forecast, maintenance is included. And I think 
that is going to be critical.
    When you're constructing a new system, you have to ensure 
that there's a way to sustain that system over a long period of 
time. Those assets are built for 50 to 100 years. And so it is 
critical that you look at the way a project sponsor plans to 
sustain a system in the future. So that is part of the plans 
that we look at when we award funding for new capital projects. 
Addressing the state-of-good-repair needs of the system is also 
going to be really critical. And having funding for the state 
of good repair, to ensure that these systems have enough funds 
for maintenance, and that the maintenance is not deferred.
    Ms. Esty. Well, I think we need to be working together to 
ensure that we see that progress through that list, the ticker 
list. This is the priority project, and this is how far the 
money gets us. And then you have to come back to us or to the 
board and say ``We are not far enough, it's dangerous, and this 
is what we've done and this is what we still need to do.'' 
Because you know, we--you have to get to the appropriators to 
make sure the money is there, but we need to see the progress.
    And we need the judgment of that on the ground, what is now 
the critical piece that needs to be addressed and that you're 
spending it that way. And finally, Mr. Wiedefeld, can you talk 
a little bit about the reliability and performance measures 
that you're going to use? What riders of the Metro should 
expect? What already has been discussed by some of my 
colleagues, are we're not where we would want to be. And 
obviously taking things offline is going to exacerbate that. 
What figures are you using and how are those going to be 
communicated to the riding public and to us?
    Mr. Wiedefeld. Sure. We do a vital signs report that 
basically we produce, that you can go online, and monitor what 
we do. One of the things that we have changed just recently, we 
used to put on our on-time performance on railcars, based on 
you know, how we managed it. We moved to a mechanism where 
basically as you tap in to the time you tap out is the real, 
from a customer's perspective, that's the real delay. So for 
instance, that's what we're starting to put out there, as 
here's what's really happening in the system. And not some sort 
of computer-generated, a number.
    Ms. Esty. Thank you. I see my time has expired. Thank you.
    Mrs. Comstock. And now I recognize Ms. Norton for 5 
minutes.
    Ms. Norton. I thank the chairwoman for taking me out of 
order. Mr. Wiedefeld, we all recognize that there are no new 
ready sources of revenue for WMATA. The usual mythical sources 
of course are mentioned from time to time, from the other side 
of the room, such as outsourcing. The Federal Government is 
never mentioned by any of you, but of course it's been alleged 
that that is what is really called for here.
    I do know that in the FAST Act, there was a 25-percent 
increase for older systems. And that was something that as the 
ranking member, I fought very hard for. Because there really is 
a difference between these systems and the newer ones. Yet what 
cannot be ignored is that Metro has had a 5-percent loss of 
ridership over the last 5 years. You're probably going to have 
more with SafeTrack.
    But I noted something you said a few months ago, that WMATA 
was trying to help itself. It was looking for something that 
business often does. Incentives to reattract riders. Things 
like, if you went into a station and it was crowded and you 
just had to leave, you could reenter at some later point. Could 
you outline what kind, if you are still considering such 
incentives, particularly after you're going to lose some of 
your riders anyway? Can you afford to put some of these 
incentives in place, and if so, what kind of incentives are you 
looking at now, to help riders return to Metro?
    Mr. Wiedefeld. OK. Yeah, a few things we've done. One is 
the ability in fact to tap in, tap out, what we call. So if you 
get into a station and there's something going on, we would 
charge you to get back out even though you didn't use the 
system. So we changed that. So basically you get 15 minutes to 
make up your mind. And if, you know, something doesn't play out 
the way you wanted to play it, you get back out and you don't 
have to pay.
    I think that's just a good customer service, you know, 
product that we should, we should have. We've worked with the 
university system, for instance, for a universal university 
pass. Where in effect, we're working with American University. 
Where they, all their students will have unlimited use of the 
system for a flat fee that they charge at the beginning of the 
year as part of their tuition or their fees, I guess. And the 
rationale for that is, basically that's a lot of nonpeak usage.
    It also introduces other people that we want to educate 
about the system and use the system, another way to attract 
people like that. Again, we're trying to do things from a 
customer and IT side to give real-time information, again, as I 
just mentioned, so people can make educated decisions. So it's 
continuing to do things like that. I've got to balance that 
clearly on the impact, the potential impact on revenue of that. 
But on the other hand, you know, we have to, you know, we have 
to make sure that we're reflecting the times of today and not 
doing the same stuff we did in 1980, 1990.
    Ms. Norton. So notwithstanding SafeTrack, you're still 
going to put those incentives out there? In fact perhaps 
because of SafeTrack, you need those incentives out there?
    Mr. Wiedefeld. Yes, we will.
    Ms. Norton. Thank you very much, Madam Chair.
    Mrs. Comstock. Thank you. I'm now going to recognize myself 
for another 5 minutes also. Going back to some of the labor 
costs, do you, can you tell us what does, for example, a track 
inspector position, what do those pay?
    Mr. Wiedefeld. I don't know the track inspectors. I know 
the operations side. But if I can get you the track 
information, I just don't have those with me.
    Mrs. Comstock. OK. And I, and I know, I know you're new. So 
I'm not blaming you. We've had some other questions and I 
haven't been able to get some answers on just some of the labor 
costs and what we're paying people per hour. And again, as 
we're talking about how we right-size this and how we get the 
expenses under control, I think it's very helpful to have that 
transparent and to know what these jobs pay in comparison to--
--
    Mr. Wiedefeld. If I could, I mean, I can tell you like on 
the operations side. Because most of, you know, most of our 
employees are bus operators, train operators, station managers. 
So the bus operator starts just about $19 an hour. The highest 
rate gets about to be $31 an hour. That's about fifth in the 
country, in terms of what we compare to other properties on the 
heavy rail side. And we're about, we're basically about fifth, 
sixth in the, on the bus side, compared to major, major 
properties.
    Mrs. Comstock. OK. And then on the, the 20 people who were 
fired, I assume that there's some longevity there? So those 
people are still getting their pensions and getting paid, you 
know, in the future, so we have legacy costs there. And that 
was one of the questions I had asked you in terms of, because 
currently the policy right now is the overtime goes towards 
their pension. So when you have overtime in the system. So we 
were trying to find out what level of overtime there was 
throughout the system. Now, I understand while we're doing this 
accelerated repair, that there's inevitably going to be some 
overtime. But that again would be why I would hope we would 
look to contracting out where we'll not only be able to avoid 
that overtime, you'll be able to avoid the long-term legacy 
costs that overtime currently would present, as well as being 
able to contract out at a lower cost. So again, I'd reemphasize 
that.
    Mr. Wiedefeld. Yeah. And let me get--I'll get you the facts 
on that.
    Mrs. Comstock. OK. And then in going forward in the labor 
negotiations, what are we the public and Congress able to see? 
I know we had talked about this a little bit. In terms of what 
are we able to see in the transparency in the labor process and 
what's being negotiated and what. Because you're going to have 
to negotiate this.
    But really since we're partners in this and the whole 
region is, I think it's important that we, you know, Virginia, 
Maryland, DC, Congress, all know what the negotiations are and 
the terms and how we compare to other systems throughout the 
country. What kind of information can we get on that?
    Mr. Wiedefeld. Well, we will be presenting that to the 
board. I mean, that is their role. So we'll be presenting all 
that information to the board. Again, we have an agreement of 
both sides to do these negotiations. You know, they're 
negotiations, so we don't want to do them in public. So that is 
what we're doing. But we will take it to the board, and that's 
a very public process.
    Mrs. Comstock. OK. But when it's presented to the board, 
can it also be presented to us in Congress?
    Mr. Wiedefeld. Yes.
    Mrs. Comstock. OK. And then, and maybe also to the public. 
Because again, kind of feeding off of that ability for the 
public. We have a lot of expertise out there. There's a lot of 
people who'd like to compete in this space, probably to give us 
a better product, more technologically accurate. And when they 
were able to see, in a transparent way, how we operate, I think 
that will give us, there are more people coming forward to talk 
to us, to talk to you. So if we can open up that process and 
just have an open platform in whatever way we need to, to get 
that information out. Whether it be the maintenance, you know, 
what we're paying various contracts, paratransit. You've 
highlighted for us that you're looking at other ways we can 
save. As well as the technology.
    Mr. Wiedefeld. Right. But again, we have to do that within 
the Federal, you know, the context of negotiations. That is, 
you know, in Federal law.
    Mrs. Comstock. OK. Ms. Flowers, do you have anything to add 
on that front, on how we might be able to help you do your job 
in terms of how you're trying to approach this?
    Ms. Flowers. We thank you for the support that you have 
provided to us through the FAST Act as well as MAP-21, in 
expanding our authority. We have the challenges of the 
additional authority and like everyone else here at the table, 
funding for that authority is one of the challenges that we 
have. So we just look for the support through the appropriation 
process to provide us with the necessary resources that are 
needed to do our job.
    Mrs. Comstock. OK. And finally, I guess I'm running out of 
time here, but there's no one else I'm imposing upon except the 
witnesses. But I wanted to ask about the ROCC. Which, you know, 
I've been up to visit, and thank you and your staff for 
bringing us there and continuing to update us on what is going 
on there. I understand right now, if it's correct, that we have 
46 positions are allocated for the controllers there. But there 
are currently 19 vacancies? Is that still accurate?
    Mr. Wiedefeld. No. I believe, I think the vacancy's down to 
three. There's people in training though.
    Mrs. Comstock. OK.
    Mr. Wiedefeld. So they're not certified yet to be on the 
floor.
    Mrs. Comstock. OK. So we're getting online to----
    Mr. Wiedefeld. Yes, yes.
    Mrs. Comstock. And I appreciate that, because you know, as 
you know, both in formal reports as well as things as informal 
as you know, I've cited it before and cited it to you all, the 
Washingtonian magazine article that kind of gave the customer 
account but also the worker account of that. That was seen as 
sort of a source of a lot of the problems are--what kind of 
actions are you able to take so far and do you see taking 
forward to correct a lot of the problems that were there?
    Mr. Wiedefeld. As I mentioned, in April, I have a new head 
of the ROCC, who has both experience there and also in other 
parts of the agency, so it brings some different skill bases to 
that. It's a focus of, now my chief safety officer, to go in 
there and think of other ways that they should be, particularly 
on drilling and things of that. The FTA's been very supportive 
of that as well. So that's, you know, again, it's, it's all of 
the above. It's not just one thing. But clearly management is a 
big part of it.
    Mrs. Comstock. OK. OK. Well, I appreciate all of your time 
and your attention to this important matter. I think you've 
heard from all of our colleagues in the region here as well as 
the chairman here and Members who've been involved in these 
issues for years. There is a large measure of goodwill and 
appreciation for what you're doing and the difficulty of the 
task ahead. And I think it's very important that as long as we 
are able to stay united on this and work with you on fixing 
this--you know, we know we will have problems and 
disagreements, you know, down the road.
    But I think as much as we can keep this together and where 
you can come to us and tell us tools that you do not have, as 
you run into blockages where you can say, well you know, ``We 
could do this faster and I can keep my year deadline or even 
shorten the year deadline if I could you know, have this 
authority from Congress or if we could change this law.'' If 
there are legislative fixes that we need or things that you 
aren't able to do under current rules, please let FTA know, let 
us know. If you know, if you aren't getting the kind of support 
from wherever, we need to know.
    And I'd also invite the listening public too, and those who 
go on blogs of whatever name, that you let us know your 
experience. Take those pictures. I can tell you when I was on 
the Transportation Committee in the statehouse, people would 
send me their pictures of road problems, things. I would be 
able to send them right to VDOT [Virginia Department of 
Transportation], and when I had a picture, when I had a 
location, it always got handled much faster. And we have people 
on these trains every day who are dealing with things.
    Take those pictures, send it up, put them on blogs, get 
that attention. Because then, whether it's the supervisors or 
anyone else there's nowhere to run to. It's there. We know it. 
You know, we're working through these problems in a systematic 
way. So I would ask all of us to be partners in helping you do 
your job. And thank you. So I ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that may be 
submitted to them in writing, and unanimous consent that the 
record remain open for 15 days for additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. And without objection, it is so 
ordered. And if no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
                          [all]
                          
                          
                          
                          
    
                                    
</pre></body></html>
